1a
APPENDIX A
United States Court of Appeals
for the Federal Circuit
__________________________
THE CHAMBERLAIN GROUP, INC.,
Plaintiff-Appellee
v.
TECHTRONIC INDUSTRIES CO.,
TECHTRONIC INDUSTRIES NORTH
AMERICA, INC., ONE WORLD
TECHNOLOGIES, INC., OWT INDUSTRIES,
INC., RYOBI TECHNOLOGIES, INC.,
Defendants-Appellants
ET TECHNOLOGY (WUXI) CO.,
Defendant
__________________________
2018-2103, 2018-2228
__________________________
Appeals from the United States District Court for
the Northern District of Illinois in No. 1:16-cv-06097,
Senior Judge Harry D. Leinenweber.
__________________________
Decided: August 21, 2019
__________________________
JUANITA ROSE BROOKS, Fish & Richardson, PC,
San Diego, CA, argued for plaintiff-appellee. Also
represented by MARIA ELENA STITELER, Minneapolis,

2a
MN; BENJAMIN ELACQUA, Houston, TX; STEFFEN
NATHANAEL JOHNSON, Wilson Sonsini Goodrich &
Rosati, Washington, DC; KATHERINE VIDAL,
MATTHEW R. MCCULLOUGH, MICHAEL RUECKHEIM,
Winston & Strawn LLP, Menlo Park, CA.
JASON C. WHITE, Morgan, Lewis & Bockius LLP,
Chicago, IL, argued for defendants-appellants. Also
represented by MICHAEL J. ABERNATHY, SANJAY K.
MURTHY, NICHOLAS A. RESTAURI; JULIE S.
GOLDEMBERG, Philadelphia, PA; WILLIAM R.
PETERSON, Houston, TX; SEAN C. CUNNINGHAM, ERIN
GIBSON, STANLEY JOSEPH PANIKOWSKI, III, DLA Piper
LLP (US), San Diego, CA.
__________________________
Before LOURIE, O’MALLEY, and CHEN, Circuit
Judges.
CHEN, Circuit Judge.
Techtronic Industries Co. Ltd., Techtronic
Industries North America, Inc., One World
Technologies, Inc., OWT Industries, Inc., and Ryobi
Technologies, Inc. (collectively, TTI) appeal from the
opinion and order of the United States District Court
for the Northern District of Illinois denying TTI’s
motion for judgment as a matter of law (JMOL) and
granting Chamberlain Group, Inc.’s (CGI) motions for
enhanced damages and attorney fees. TTI also
appeals the jury’s verdict with respect to
infringement and validity. We have jurisdiction under
28 U.S.C. § 1295(a)(1).

3a
Because we conclude that claims 1, 5, and 15 of
CGI’s U.S. Patent No. 7,224,275 (’275 patent) are
directed to an abstract idea and therefore patentineligible, we reverse the district court’s JMOL
decision with respect to the ’275 patent on 35 U.S.C.
§ 101 grounds. We affirm the jury’s verdict with
respect to its finding of no anticipation of claims 14,
17, and 18 of CGI’s U.S. Patent No. 7,635,966 (’966
patent) by U.S. Patent No. 6,484,784 (Weik).
Accordingly, we vacate the district court’s injunction
and its awards of enhanced damages and attorney
fees, and remand to the district court for
reconsideration of enhanced damages and attorney
fees with respect to only the ’966 patent.
A. THE ’275 PATENT
The ’275 patent relates to an apparatus and
method for communicating information about the
status of a movable barrier, for example, a garage
door. The ’275 patent explains that, “[o]ver time, the
capabilities of and features supported by … movable
barrier operators … expanded to include actions
other than merely opening and closing a
corresponding movable barrier.” ’275 patent at col. 1,
ll. 31-34. Some movable barrier operators could
provide ambient lighting, for example, or sense the
presence of an obstacle in the path of the movable
barrier and take an appropriate action. Id. at col. 1, ll.
34-38. The ’275 patent explains that the movable
barrier operator may communicate information
relating to the movable barrier’s status with respect
to these actions with various peripheral devices,
including sensors, alarms, displays, lights, and so
forth. Id. at col. 1, ll. 54-61. Rather than

4a
communicating this information over a physical
signaling path, the asserted claims recite
communicating it wirelessly. Id. at col. 1, l. 64 - col. 2,
l. 16. The specification describes wireless
transmitters as being “well understood in the art.” Id.
at col. 3, l. 54 - col. 4, l. 4.
The parties do not contest the district court’s
treatment of claim 1 as representative. Claim 1
recites:
1. A movable barrier operator comprising:
a controller having a plurality of potential
operational status conditions defined, at least
in part, by a plurality of operating states;
a movable barrier interface that is operably
coupled to the controller;
a wireless status condition data transmitter
that is operably coupled to the controller,
wherein the wireless status condition data
transmitter transmits a status condition
signal that:
corresponds to a present operational
status condition defined, at least in
part, by at least two operating states
from the plurality of operating states;
and
comprises an identifier that is at least
relatively unique to the movable
barrier operator, such that the status
condition
signal
substantially

5a
uniquely identifies
barrier operator.

the

movable

Id. at claim 1.
TTI moved for JMOL that the asserted claims of
the ’275 patent are directed to patent-ineligible
subject matter under § 101. The district court denied
TTI’s motion, disagreeing with TTI’s allegation that
the asserted claims are directed to the abstract idea
of wireless transmission of content. See J.A. 98. The
district court determined that, “[h]ere, the ’275 patent
claims are not directed to the transmission of data,
but to garage door openers that wirelessly transmit
status information.” J.A. 99 (internal quotation
marks omitted). The district court further determined
that the asserted claims are directed to “a particular
improvement over prior art which uses a particular
manner of sending and experiencing data,” which it
deemed patent-eligible in light of this court’s decision
in Core Wireless Licensing S.A.R.L. v. LG Electronics,
Inc., 880 F.3d 1356, 1361 (Fed. Cir. 2018), and various
other decisions. J.A. 103-05. Because it concluded
that the asserted claims were not directed to any
abstract idea, the court did not reach step two of Alice
Corp. Pty. Ltd. v. CLS Bank Int’l, 573 U.S. 208, 218
(2014). J.A. 106.
Patent eligibility under § 101 is a question of law
that may contain underlying issues of fact. Interval
Licensing LLC v. AOL, Inc., 896 F.3d 1335, 1342 (Fed.
Cir. 2018) (citing Berkheimer v. HP Inc., 881 F.3d
1360, 1365 (Fed. Cir. 2018)). We review an ultimate
conclusion on patent eligibility de novo. See id.

6a
The Supreme Court has deemed certain
categories of subject matter, including abstract ideas,
ineligible for patent protection under § 101. Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 566
U.S. 66, 70 (2012). “The ‘abstract ideas’ category
embodies the longstanding rule that an idea of itself
is not patentable.” Alice Corp., 573 U.S. at 218
(internal brackets and quotation marks omitted). To
determine whether claimed subject matter is patenteligible, we apply the two-step framework set forth in
Alice. Id. First, we “determine whether the claims at
issue are directed to a patent-ineligible concept,” such
as an abstract idea. Id. Second, if so, we “examine the
elements of the claim to determine whether it
contains an ‘inventive concept’ sufficient to
‘transform’ the claimed abstract idea into a patenteligible application.” Id. at 221 (quoting Mayo, 566
U.S. at 72, 80).
1. Step One
At step one, we “look at the focus of the claimed
advance over the prior art to determine if the claim’s
character as a whole is directed to excluded subject
matter.” Affinity Labs of Tex., LLC v. DIRECTV, LLC,
838 F.3d 1253, 1257 (Fed. Cir. 2016) (internal
quotation marks omitted). “[T]he specification [is]
helpful in illuminating what a claim is ‘directed to.’”
ChargePoint, Inc. v. SemaConnect, Inc., 920 F.3d 759,
766 (Fed. Cir. 2019). “But while the specification may
help illuminate the true focus of a claim, when
analyzing patent eligibility, reliance on the
specification must always yield to the claim language
in identifying that focus.” Id.

7a
We conclude that claim 1 is directed to wirelessly
communicating status information about a system.
See, e.g., ’275 patent at claim 1 (reciting that “the
wireless status condition data transmitter transmits
a status condition signal that: corresponds to a
present operational status condition defined, at least
in part, by at least two operating states”). The
specification supports this conclusion. The only
described difference between the prior art movable
barrier operator systems and the claimed movable
barrier operator system is that the status information
about the system is communicated wirelessly, in
order to overcome certain undesirable disadvantages
of systems using physical signal paths—additional
cost, exposed wiring, and increased installation time.
See id. at col. 1, l. 49 - col. 2, l. 16, col. 3, ll. 16-26.
Wirelessly communicating status information
about a system is similar to abstract ideas we have
found in our previous cases. See Amdocs (Israel) Ltd.
v. Openet Telecom, Inc., 841 F.3d 1288, 1294 (Fed. Cir.
2016) (explaining that courts typically “examine
earlier cases in which a similar or parallel descriptive
nature can be seen” as part of their abstract idea
analysis). In DIRECTV, we found claims reciting the
function of wirelessly communicating regional
broadcast content to an out-of-region recipient to be
directed to the abstract idea of “providing out-ofregion access to regional broadcast content.”
DIRECTV, 838 F.3d at 1258. In Affinity Labs of
Texas, LLC v. Amazon.com Inc., 838 F.3d 1266 (Fed.
Cir. 2016), we found claims reciting media systems
that deliver streaming content to a handheld wireless
electronic device to be directed to the abstract idea of
“delivering user-selected media content to portable

8a
devices.” Id. at 1269. As such, the broad concept of
communicating information wirelessly, without more,
is an abstract idea.
This case is unlike those in which we have
determined that the claims were not directed to
abstract ideas. In Thales Visionix Inc. v. United
States, 850 F.3d 1343, 1344-45 (Fed. Cir. 2017), to
which CGI likens the asserted claims, the claimed
advance over the prior art related to a new, specific
way in which sensors measured inertial changes. See
id. at 1345. In the prior art, the measurement
occurred with respect to the earth, but, in the asserted
claims, “[w]hen the moving platform accelerates or
turns, the inertial sensor on the platform directly
measures the gravitational effect in the moving
reference frame and the system therefore requires
fewer measured inputs (and fewer points of potential
error) to determine the position and orientation of the
tracked object.” Id. at 1345. “By changing the
reference frame, one [could] track the position and
orientation of the object within the moving platform
without input from a vehicle attitude reference
system or calculating orientation or position of the
moving platform itself.” Id. This created multiple
advantages over prior art systems, including
increased accuracy and independent operation. Id.
The asserted claims here are not limited to a specific
implementation of a technological improvement to
communication systems. Rather, they simply recite a
system that wirelessly communicates status
information.
Nor do the asserted claims “focus on a specific
means or method that improves the relevant

9a
technology,” McRO, Inc. v. Bandai Namco Games Am.
Inc., 837 F.3d 1299, 1314 (Fed. Cir. 2016), or “effect
an improvement in any other technology or technical
field,” DDR Holdings, LLC v. Hotels.com, L.P., 773
F.3d 1245, 1265 (Fed. Cir. 2014) (quoting Alice, 573
U.S. at 225). The specification admits that the act of
transmitting data wirelessly is “well understood in
the art,” and no other changes to the generically
claimed movable barrier operator are recited in the
asserted claims or described in the specification. ’275
patent at col. 3, ll. 54-60. Moreover, that the claimed
invention transmits data wirelessly and therefore
does not rely on a wired path is not itself a
technological improvement, but rather simply a
feature of wireless communication, which the
specification explains was already a basic,
conventional form of communication.
The district court likened this case to Core
Wireless. In Core Wireless, we determined that claims
drawn to improved interfaces for electronic devices
with small screens that allowed users to more quickly
access desired data stored in, and functions of
applications included in, the electronic devices were
not drawn to the abstract idea of an index. Core
Wireless, 880 F.3d at 1359, 1362. We concluded that
the claims recited “a specific improvement over prior
systems, resulting in an improved user interface for
electronic devices.” Id. at 1363. The same is not true
here, where the claims merely recite a system that
communicates status information, in the same “well
understood” manner that wireless transmissions
have always occurred. See ’275 patent at col. 3, ll.
54-60. Unlike Core Wireless, no specific manner of

10a
performing the abstract idea is recited in these
claims.
CGI alleges that its claims are not directed to an
abstract idea, but instead to a novel combination of its
prior art movable barrier operator with a transmitter
that is wireless. The district court’s analysis mirrored
CGI’s approach. See J.A. 99-105. But “[t]he Supreme
Court and this court have repeatedly made clear that
merely limiting the field of use of the abstract idea to
a particular existing technological environment does
not render the claims any less abstract.” DIRECTV,
838 F.3d at 1259.
Last, CGI’s reliance on the asserted claims being
directed to “physical real world manifestation[s] of an
improved machine” is misplaced. See Appellee’s Op.
Br. at 22. Without more, the mere physical nature of
CGI’s claim elements (e.g., controller, interface, and
wireless data transmitter) is not enough to save the
claims from abstractness, where the claimed advance
is directed to the wireless communication of status
information using off-the-shelf technology for its
intended purpose. See In re Marco Guldenaar Holding
B.V., 911 F.3d 1157, 1161 (Fed. Cir. 2018).
Because we find that the asserted claims are
drawn to the abstract idea of wirelessly
communicating status information about a system,
we proceed to step two of the analysis.
2. Step Two
“The ‘inventive concept’ step requires us to look
with more specificity at what the claim elements add,

11a
in order to determine whether they identify an
‘inventive concept’ in the application of the ineligible
subject matter to which the claim is directed.”
DIRECTV, 838 F.3d at 1258 (internal quotation
marks omitted). “Simply appending conventional
steps, specified at a high level of generality, [i]s not
enough to supply an inventive concept.” Alice, 573
U.S. at 222 (internal quotation marks and emphasis
omitted).
The specification describes each individual
element of the asserted claims—including the
controller, the interface, and the wireless data
transmitter—as “well understood in the art.” ’275
patent at col. 3, l. 27 - col. 4, l. 4. These conventional
components, all recited in a generic way, are no better
equipped to save the claim from abstractness than
were, for example, the conventional computer used in
Alice or the scanner used in Content Extraction &
Transmission LLC v. Wells Fargo Bank, National
Ass’n, 776 F.3d 1343, 1347 (Fed. Cir. 2014).
CGI argues that the ordered combination of the
asserted claims’ elements provides the inventive
concept because “there is no evidence in the record”
that “a new type of movable barrier operator that
includes an integrated controller and a wireless
transmitter to transmit a status signal” was “wellunderstood, routine and conventional to a skilled
artisan.” Appellee’s Op. Br. at 28 (citing Berkheimer,
881 F.3d at 1368). CGI misunderstands our case law.
The appropriate question is not whether the entire
claim as a whole was “well-understood, routine [and]
conventional” to a skilled artisan (i.e., whether it
lacks novelty), but rather, there are two distinct

12a
questions: (1) whether each of “the [elements] in the
claimed [product] (apart from the natural laws
themselves) involve well-understood,
routine,
conventional activity previously engaged in by
researchers in the field,” Mayo, 566 U.S. at 73, and (2)
whether all of the steps “as an ordered combination
add[] nothing to the laws of nature that is not already
present when the steps are considered separately,” id.
at 79 (emphasis added). In other words, beyond the
idea of wirelessly communicating status information
about a movable barrier operator, what elements in
the claim may be regarded as the “inventive concept”?
This analysis applies to both system and method
claims. Alice, 573 U.S. at 226.
As we explained above, the specification makes
clear that transmitting information wirelessly was
conventional at the time the patent was filed and
could be performed with off-the-shelf technology. ’275
patent at col. 3, l. 54 - col. 4, l. 4. Yet wireless
transmission is the only aspect of the claims that CGI
points to as allegedly inventive over the prior art. See,
e.g., Appellee’s Op. Br. at 31 (“[T]he ’275’s claims, like
Bascom’s, are patent-eligible because they ‘carve out’
a specific implementation (a specific type of operator
with an integrated controller and wireless
transmitter to transmit status information) that
provide [sic] greater flexibility than the prior art
physical
interfaces
approach.”).
Wireless
communication cannot be an inventive concept here,
because it is the abstract idea that the claims are
directed to. See Interval Licensing, 896 F.3d at 1347.
Because CGI does not point to any inventive concept
present in the ordered combination of elements
beyond the act of wireless communication, we find

13a
that no inventive concept exists in the asserted claims
sufficient to transform the abstract idea of
communicating status information about a system
into a patent-eligible application of that idea.
We therefore reverse the district court’s opinion
and order to the extent that it found the asserted
claims of the ’275 patent eligible for patent protection
under § 101.
B. ’966 PATENT
The ’966 patent relates to a rechargeable battery
backup system for a barrier movement operator. In
the event of a power outage, many garage door
openers that are powered via electrical outlet cannot
open and close the garage door, so, consequently, the
garage door must be opened and closed manually. ’966
patent at col. 1, ll. 25-27. It is therefore useful for the
barrier movement operator to have a rechargeable
battery to be used as a backup, but it is also inefficient
to use separate, distinct rechargeable batteries for
multiple devices, for example, with cordless power
tools. Id. at col. 1, ll. 31-50. Accordingly, the invention
of the ’966 patent includes the ability for the barrier
movement operator to be powered by a main power
source, and the operator also possesses a battery
charging system that charges a rechargeable battery
capable of being used with both the barrier movement
operator and other electrically powered equipment
that may be stored in a garage. Id. at claim 1.
The jury found, inter alia, that the asserted
claims of the ’966 patent were not anticipated by
Weik. J.A. 90. TTI moved for JMOL that Weik

14a
anticipates the asserted claims, which the district
court denied. J.A. 134. The district court explained,
quoting CGI’s expert, that Weik “teaches a motoroperated door and discloses two different
embodiments, one of which has a portable battery and
no charger and one of which has a nonportable battery
but does have a charger.” J.A. 131 (internal quotation
marks omitted). TTI argued that a particular
combination of these two embodiments (a portable
battery with a charger) anticipates the asserted
claims of the ’966 patent. Id. Citing Microsoft Corp. v.
Biscotti, Inc., 878 F.3d 1052, 1069 (Fed. Cir. 2017), the
district court stated that “[t]hough combinations of
adjacently disclosed embodiments may be considered
under the obviousness analysis, the same is not true
for anticipation” and concluded that any testimony by
TTI’s expert explaining an anticipation theory relying
on the combination of the two embodiments was
improper as a matter of law. J.A. 132-33.
To the extent the district court suggested a
blanket rule that two embodiments disclosed in a
reference can never be considered in combination to
make a finding of anticipation, this was incorrect. In
Kennametal, Inc. v. Ingersoll Cutting Tool Co., 780
F.3d 1376 (Fed. Cir. 2015), we explained that “a
reference can anticipate a claim even if it ‘d[oes] not
expressly spell out’ all the limitations arranged or
combined as in the claim, if a person of skill in the art,
reading the reference, would ‘at once envisage’ the
claimed arrangement or combination.” Id. at 1381.
Thus, even when a reference discloses elements in
different locations in the disclosure, the relevant
question is whether the reference is sufficiently clear
in disclosing the combinability of those elements such

15a
that a skilled artisan would “at once envisage” the
claimed combination. However, because TTI does not
allege that the jury ever received the district court’s
recitation of the law from the JMOL, and because TTI
does not appeal any jury instructions containing the
court’s language, we find any error by the district
court to be harmless under the circumstances.
“Anticipation is a factual question, and a jury
verdict regarding anticipation is reviewed after trial
for substantial evidence.” Eaton Corp. v. Rockwell
Int’l Corp., 323 F.3d 1332, 1343 (Fed. Cir. 2003).
Because Weik’s disclosure as to the possible
combinability of the embodiments in the way TTI
urges is less than clear, we agree with the district
court that TTI has not met its burden of showing that
the jury’s no-anticipation verdict was not supported
by substantial evidence. Accordingly, we affirm the
verdict.
C. TTI’S REQUESTS FOR A NEW TRIAL
TTI moved at the district court for a new trial
based on two grounds: (1) because the district court
allegedly erred in denying TTI’s motion to transfer
venue after the Supreme Court’s TC Heartland
decision, and (2) because the district court allegedly
erred in admitting into the record the Patent Trial
and Appeal Board’s (Board) non-institution decision
with respect to TTI’s petition for inter partes review of
the ’966 patent as evidence. The district court denied
TTI’s motion. We decline to reverse on either ground.
“In reviewing a district court’s disposition of … a
new trial motion, this court applies the law of the

16a
regional circuit where the district court sits,” here, the
Seventh Circuit. Bettcher Indus., Inc. v. Bunzl USA,
Inc., 661 F.3d 629, 638 (Fed. Cir. 2011). The Seventh
Circuit “give[s] great deference to a district court’s
rulings on motions to transfer venue.” In re Chi.,
Milwaukee, St. Paul & Pac. R.R., 974 F.2d 775, 789
(7th Cir. 1992). “Indeed, [the appellate] court can only
reverse a district court’s determinations in this
regard if [it] find[s] a ‘clear abuse of discretion.’” Id.
(quoting Cote v. Wadel, 796 F.2d 981, 985 (7th Cir.
1986)). The Seventh Circuit’s “standard of review in
determining whether the district court committed
reversible error in either the admission or exclusion
of evidence is abuse of discretion.” Geitz v. Lindsey,
893 F.2d 148, 150 (7th Cir. 1990).
We do not find that the district court abused its
discretion on either ground. As we explained in In re
Micron Technology, Inc., 875 F.3d 1091 (Fed. Cir.
2017), “Congress has provided express statutory
confirmation of judicial authority to consider the
timeliness and adequacy of a venue objection: 28
U.S.C. § 1406(b) provides that ‘[n]othing in this
chapter shall impair the jurisdiction of a district court
of any matter involving a party who does not
interpose timely and sufficient objection to the
venue.’” Id. at 1101. “[D]istrict courts have authority
to find forfeiture of a venue objection,” for example
where
“venue
objections
based
on
TC
Heartland … were presented close to trial.” Id. at
1101-02. In Micron, we pointed to cases—including
for a writ of mandamus previously filed to our court
by TTI that stemmed from the same underlying
proceeding as this appeal—where we had previously
denied mandamus and found no clear abuse of

17a
discretion where the motion to transfer venue was
filed two to three months before trial. Id. at 1102 &
n.4. TTI waited almost thirty days after TC Heartland
and two months before trial to file a motion to transfer
venue. The district court did not abuse its discretion
in denying TTI’s motion to transfer venue under the
circumstances here.
Nor did the district court abuse its discretion in
admitting the Board’s non-institution decision. TTI
requested and the district court gave a limiting
instruction to the jury explaining that the legal
standards applied by the Patent Office and the legal
standards the jury must apply may differ, for example
the application of different claim constructions. See
J.A. 148-49. The Supreme Court has previously
approved of limiting instructions that direct juries to
consider differences between proceedings at the
Patent Office and in front of the district court. See,
e.g., Microsoft Corp. v. I4I Ltd. P’ship, 564 U.S. 91,
111 (2011) (“When warranted, the jury may be
instructed to consider that it has heard evidence that
the PTO had no opportunity to evaluate before
granting the patent. When it is disputed whether the
evidence presented to the jury differs from that
evaluated by the PTO, the jury may be instructed to
consider that question.”). But district courts should
still exercise caution when admitting evidence of a
denial of institution because it may be confusing to
the jury and prejudicial. We have often affirmed
district courts in similar situations where the district
courts exclude evidence of a non-final determination
from ongoing proceedings at the Patent Office. See
SSL Servs., LLC v. Citrix Sys., Inc., 769 F.3d 1073,
1093 (Fed. Cir. 2014); Callaway Golf Co. v. Acushnet

18a
Co., 576 F.3d 1331, 1342-43 (Fed. Cir. 2009).
Although ongoing proceedings may be prejudicial for
different reasons, such as being non-final, the
concerns of confusing the jury because the Patent
Office uses different standards from the district
courts remains the same. Accordingly, both ongoing
proceedings and denials of institution provide limited
probative value that is likely to be outweighed by the
prejudice to the opposing party, and limiting
instructions to the jury do not necessarily cure the
prejudice. However, under the circumstances of this
case, TTI has not shown an abuse of discretion. We
affirm the district court’s denial of TTI’s motion for a
new trial.
D. ENHANCED DAMAGES AND ATTORNEY FEES
Much of the district court’s analysis awarding TTI
enhanced damages and attorney fees was focused on
activities relating to the ’275 patent. Because we
conclude that the asserted claims of the ’275 patent
are invalid under § 101 but affirm the jury’s verdict
with respect to the ’966 patent, we vacate the district
court’s enhanced damages and attorney fees award
and remand for the court to reconsider whether the
award is warranted with respect to only the ’966
patent.
CONCLUSION
For the reasons stated above, we reverse the
district court’s judgment as a matter of law with
respect to the asserted claims of the ’275 patent. We
affirm the jury’s verdict on anticipation with respect
to the asserted claims of the ’966 patent and the

19a
district court’s determinations on TTI’s motion for a
new trial. We vacate the district court’s injunction
and its awards of enhanced damages and attorney
fees, and we remand for reconsideration of enhanced
damages and attorney fees consistent with this
opinion. We have considered the parties’ remaining
arguments and find them unpersuasive.
REVERSED-IN-PART, AFFIRMED-INPART, AND VACATED-AND-REMANDED-INPART
No costs.

20a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS EASTERN DIVISION
THE CHAMBERLAIN
GROUP, INC.,
Plaintiff,
v.
Case No. 16 C 6097
TECHTRONIC
INDUSTRIES CO., LTD.,
TECHTRONIC
INDUSTRIES NORTH
AMERICA, INC.,
ONE WORLD
TECHNOLOGIES, INC.,
OWT INDUSTRIES, INC.,
ET TECHNOLOGY
(WUXI) CO. LTD., and
RYOBI TECHNOLOGIES,
INC.,

Judge Harry D.
Leinenweber

Defendants.
MEMORANDUM OPINION AND ORDER
Plaintiff
Chamberlain
Group,
Inc.
(“Chamberlain”) won a jury verdict against
Defendants Techtronic Industries Co., Ltd.,
Techtronic Industries North America, Inc., One World

21a
Technologies, Inc., OWT Industries, Inc., Et
Technology (WUXI) Co. Ltd., and Ryobi Technologies
(collectively, “TTI”), in which the jury found that TTI
willfully infringed two of Chamberlain’s patents, U.S.
Patent Nos. 7,224,275 (“the ’275 patent”) and
7,635,966 (“the ’966 patent”). Both parties have filed
post-trial motions. This opinion presumes familiarity
with the case’s background, as described in this
Court’s previous rulings. (See, e.g., Dkt. 104
(preliminary injunction opinion); Chamberlain Grp.,
Inc. v. Techtronic Indus. Co., No. 16 C 6097, 2017 WL
368027 (N.D. Ill. Jan. 23, 2017) (contempt opinion);
Chamberlain Grp., Inc. v. Techtronic Indus. Co., No.
16 C 6097, 2017 WL 1304559 (N.D. Ill. Apr. 7, 2017)
(claim construction opinion); Chamberlain Grp., Inc.
v. Techtronic Indus. Co., No. 16 C 6097, 2017 WL
3205772 (N.D. Ill. June 28, 2017) (order denying
motion to transfer venue).)
I. TTI’s Renewed Motion for Judgment as a
Matter of Law
The Court “should render judgment as a matter of
law when a party has been fully heard on an issue and
there is no legally sufficient evidentiary basis for a
reasonable jury to find for that party on that issue.”
Reeves v. Sanderson Plumbing Prods., 530 U.S. 133,
149 (2000) (quoting FED. R. CIV. P. 50(a)). This is a
stringent standard under which the Court
“construe[s] the facts strictly in favor of the party that
prevailed at trial.” Schandelmeier-Bartels v. Chi.
Park Dist., 634 F.3d 372, 376 (7th Cir. 2011) (citations
omitted). On a motion for JMOL, “the court does not
make credibility determinations or weigh the
evidence,” id., though the Court must “disregard all

22a
evidence favorable to the moving party that the jury
is not required to believe.” Reeves, 530 U.S. at 151.
The court leaves the jury’s factual findings
“undisturbed as long as they are supported by
substantial evidence,” i.e., “such relevant evidence as
a reasonable mind might accept as adequate to
support a conclusion.” Akamai Techs., Inc. v. Cable &
Wireless Internet Servs., Inc., 344 F.3d 1186, 1192
(Fed. Cir. 2003) (quoting Consol. Edison Co. v. NLRB,
305 U.S. 197, 229 (1938)).
In its renewed Motion for JMOL, TTI argues it is
entitled to judgment because: (1) the asserted ’275
patent claims are directed to ineligible subject matter
under Alice Corp. Pty. v. CLS Bank Int’l, 134 S. Ct.
2347 (2014); (2) the ’275 patent was anticipated or
rendered obvious by prior art; (3) TTI’s products do
not literally infringe the ’275 patent; (4) the doctrine
of equivalents does not apply here, and the jury
should not have considered it; (5) TTI does not induce
infringement of the ’275 patent, (6) TTI does not
willfully infringe the ’275 patent; (7) the ’966 patent
was anticipated or rendered obvious by prior art; (8)
TTI does not literally infringe the ’966 patent; (9) TTI
does not induce infringement of the ’966 patent; (10)
TTI does not willfully infringe the ’966 patent; and
(11) Chamberlain failed to prove damages. The Court
takes each argument in turn.
A. Ineligibility of Asserted ’275 Patent Claims
Anyone who “invents or discovers any new and
useful process, machine, manufacture, or composition
of matter, or any new and useful improvement
thereof” may obtain a patent. 35 U.S.C. § 101. But

23a
because patent protection does not extend to claims
that monopolize the “building blocks of human
ingenuity,” claims directed to laws of nature, natural
phenomena, and abstract ideas are not patent
eligible. Alice, 134 S. Ct. at 2354. The Supreme Court
instructs courts to distinguish between those claims
directed to patent-ineligible subject matter and those
that “integrate the building blocks into something
more.” Id. To do so, courts follow the two-step Alice
framework. Id. First, a court must “determine
whether the claims at issue are directed to a patentineligible concept.” Id. at 2355. If they are not so
directed, the claims satisfy § 101, and the inquiry
ends. Visual Memory LLC v. NVIDIA Corp., 867 F.3d
1253, 1262 (Fed. Cir. 2017). But if the claims are so
directed, the court proceeds to step two and
“examine[s] the elements of the claim to determine
whether it contains an ‘inventive concept’ sufficient to
‘transform’ the claimed abstract idea into a patenteligible application.” Core Wireless Licensing S.A.R.L.
v. LG Elecs., Inc., 880 F.3d 1356, 1361 (Fed. Cir. 2018)
(quoting Mayo Collaborative Servs. v. Prometheus
Labs., Inc., 566 U.S. 66, 72, 79 (2012)).
To begin the Alice analysis, the court must
“articulate what the claims are directed to with
enough specificity to ensure the step one inquiry is
meaningful.” Id. (quoting Thales Visionix Inc. v.
United States, 850 F.3d 1343, 1347 (Fed. Cir. 2017)).
Further, “claims are considered in their entirety to
ascertain whether their character as a whole is
directed to excluded subject matter.” Internet Patents
Corp. v. Active Network, Inc., 790 F.3d 1343, 1346
(Fed. Cir. 2015). The court “look[s] to whether the
claims … focus on a specific means or method that

24a
improves the relevant technology or are instead
directed to a result or effect that itself is the abstract
idea and merely invoke generic processes and
machinery.” Smart Sys. Innovations, LLC v. Chi.
Transit Auth., 873 F.3d 1364, 1371 (Fed. Cir. 2017)
(quoting McRO, Inc. v. Bandai Namco Games Am.
Inc., 837 F.3d 1299, 1313 (Fed. Cir. 2016)).
Here, TTI claims that wireless transmission of
content is an abstract idea, and that the asserted ’275
patent claims are directed to nothing more. First off,
the cases TTI cites in support of this proposition do
not hold that wireless transmission is an abstract
idea. Affinity Labs of Tex., LLC v. DIRECTV, LLC,
838 F.3d 1253, 1258 (Fed. Cir. 2016) (holding that the
concept of providing out-of-region access to regional
broadcast content is an abstract idea), cert. denied sub
nom. Affinity Labs of Tex., LLC v. DIRECTTV, LLC,
137 S. Ct. 1596 (2017); Affinity Labs of Tex., LLC v.
Amazon.com Inc., 838 F.3d 1266, 1271-72 (Fed. Cir.
2016) (holding that the concept of delivering userselected media content to portable devices is an
abstract idea), cert. denied, 137 S. Ct. 1596 (2017).
And second, the Federal Circuit has warned against
the dangers of over-abstraction, Core Wireless, 880
F.3d at 1361 (“[W]e must be mindful that ‘all
inventions at some level embody, use, reflect, rest
upon, or apply laws of nature, natural phenomena, or
abstract ideas.’” (quoting Mayo, 566 U.S. at 71)), and
disapproved of parties’ efforts to render abstract
objects that are not, id. at 1362 (“The asserted claims
in this case are directed to an improved user interface
for computing devices, not to the abstract idea of an
index, as argued by LG on appeal.”). Here, the ’275
patent claims are not directed to the transmission of

25a
data, but “to garage door openers that wirelessly
transmit status information.” The Chamberlain Grp.,
Inc. v. Techtronic Indus. Co., 676 F. App’x 980, 982
(Fed. Cir. 2017) (appeal from this Court’s initial claim
construction). Having identified what the ’275 patent
claims are directed to, the Court must now determine
whether this object is an abstract idea.
“The Supreme Court has not established a
definitive rule to determine what constitutes an
‘abstract idea’ sufficient to satisfy the first step of the
[Alice] inquiry,” and as such the appropriate analysis
“compare[s] claims at issue to those claims already
found to be directed to an abstract idea in previous
cases.” Enfish, LLC v. Microsoft Corp., 822 F.3d 1327,
1334 (Fed. Cir. 2016). Post-Alice decisions have found
ineligible: paying for mass transit rides with a credit
card, Smart Sys. Innovations, LLC v. Chi. Transit
Auth., 873 F.3d 1364, 1371 (Fed. Cir. 2017); “the
abstract idea of testing operators of any kind of
moving equipment for any kind of physical or mental
impairment,” Vehicle Intelligence & Safety LLC v.
Mercedes-Benz USA, LLC, 635 F. App’x 914, 917 (Fed.
Cir. 2015); the “abstract idea for increasing sales
implemented via ‘some unspecified, generic
computer,’” DDR Holdings, LLC v. Hotels.com, L.P.,
773 F.3d 1245, 1266 (Fed. Cir. 2015); creating a
“transaction performance guaranty” over an
unspecified network, buySAFE, Inc. v. Google, Inc.,
765 F.3d 1350, 1355 (Fed. Cir. 2014); “offering media
content in exchange for viewing an advertisement,”
Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 715-16
(Fed. Cir. 2014); the abstract idea of a conversion
chart, Tech. Dev. & Licensing, LLC v. Comcast Corp.,
258 F. Supp. 3d 884, 887 (N.D. Ill. 2017); and the

26a
routine and conventional activity of making and
storing lists on a microprocessor, Tech. Dev. &,
Licensing, LLC v. Gen. Instrument Corp., 225 F. Supp.
3d 729, 735 (N.D. Ill. 2016).
Chamberlain, of course, argues the ’275 patent
claims are not directed to abstract ideas as in the
cases above and should pass muster under § 101. In
doing so, Chamberlain relies in large part on
Chamberlain Group, Inc. v. Linear LLC, 114 F. Supp.
3d 614 (N.D. Ill. 2015). In Linear, Chamberlain
claimed the defendant infringed its GDO patents
(though not the patents asserted here), and the
defendant moved to dismiss on the grounds that the
claims were not directed to patent-eligible subject
matter. Id. at 621. The court described the relevant
patent claims as directed to “opening and closing a
movable barrier, (e.g., garage door) using a computer
network for communication between the monitor or
operator (including a controller), and movable
barrier,” id. at 626, and held this to be eligible subject
matter in part because the claims “ha[d] physical and
tangible components that are directed to more than
performance of an abstract idea,” id. at 625. The court
also held that the asserted claims were directed to a
technological improvement because they integrated a
GDO and a network. Id. at 626-27.
Both of these rationales have met with
disagreement, however. First, another court in this
district observed that Linear did not benefit from the
guidance of the Federal Circuit’s later decision in
Vehicle Intelligence & Safety LLC v. Mercedes-Benz
USA, LLC, 635 F. App’x 914, 920 (Fed. Cir. 2015),
which demonstrated that “the mere presence of a

27a
‘real-world, physical’ purpose, such as controlling
equipment, does not show that the claims do not
preempt an abstract idea.” Joao Control & Monitoring
Sys., LLC v. Telular Corp., 173 F. Supp. 3d 717, 729
(N.D. Ill. 2016) (characterizing Vehicle Intelligence).
Second, an out-of-circuit district court opined that
“[t]he alleged technological improvement in [Linear]
amounts to nothing more than operating an existing
device from a remote location over a network,” which
cannot suffice for a “technological improvement.”
ChargePoint, Inc. v. SemaConnect, Inc., No. CV 17
3717, 2018 WL 1471685, at *11 (D. Md. Mar. 23,
2018).
Neither of these critiques compels the Court to
find patent-ineligible subject matter, however. The
Vehicle Intelligence decision does not cite Linear nor
express any opinion on it. And TTI itself points out
that Linear “involved a different Chamberlain
patent … that solved a different problem and recited
limitations different from those in the claims asserted
here.” (TTI’s Reply in Supp. of Summary Judgment at
1, Dkt. 546.) Unlike Joao’s characterization of the
claims in Linear, the claims asserted here are not
directed to an abstract idea that merely happens to
make use of physical equipment. And as for the
Chargepoint critique, the technological improvements
of the asserted ’275 patent claims are not limited to
the introduction of network connectivity. Rather, the
asserted ’275 claims are directed to a particular
improvement over prior art which uses a particular
manner of sending and experiencing data. This
particularity distinction matters. In Core Wireless,
the Federal Circuit affirmed the district court’s
patent-eligibility finding for claims directed to “an

28a
improved user interface for computing devices.” 880
F.3d at 1362. The court explained: “Although the
generic idea of summarizing information certainly
existed prior to the invention, these claims are
directed to a particular manner of summarizing and
presenting information in electronic devices.” Id. at
1362 (emphasis added). Concerning this “particular
manner,” the court noted that the claims stated
specific limitations which “disclose[d] a specific
manner of displaying a limited set of information to
the user, rather than using conventional user
interface methods to display a generic index on a
computer. … [T]hese claims recite a specific
improvement over prior systems.” Id. at 1363. Indeed,
the Federal Circuit has repeatedly found claims
directed to patent-eligible subject matter when those
claims “focused on various improvements of systems.”
Id. at 1362; see, e.g., Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327, 1336, 1338 (Fed. Cir. 2016) (claims
reciting a self-referential table for a computer
database directed to a particular improvement in the
computer’s functionality); Thales Visionix Inc. v.
United States, 850 F.3d 1343, 1345, 1349 (Fed. Cir.
2017) (claims reciting an improved method of utilizing
particularly configured sensors to determine position
and orientation of an object on a moving platform,
which relied on a particular method of utilizing raw
data which eliminated complications inherent in
conventional methods); Visual Memory LLC v.
NVIDIA Corp., 867 F.3d 1253, 1258-59 (Fed. Cir.
2017) (claims reciting programmable operational
characteristics that provided flexibility not possessed
by the prior art).

29a
Thus, the Federal Circuit’s case law suggests that
particular and unconventional improvements to prior
art are § 101-eligible. Such guideposts protect against
overbroad patents preempting “the use of the
underlying [abstract] ideas.” See, Alice, 134 S. Ct. at
2354; Accenture Global Servs., GmbH v. Guidewire
Software, Inc., 728 F.3d 1336, 1341 (Fed. Cir. 2013)
(expressing in pre-Alice opinion that “[i]n the case of
abstractness, the court must determine whether the
claim poses any risk of preempting an abstract idea.”)
(citation and internal quotation omitted); accord
Joao, 173 F. Supp. 3d at 728 (expressing same).
Chamberlain’s ‘256 patent claims recite such
particular and unconventional improvements. The
moveable barrier operator (“MBO,” often used
interchangeably in the briefing with garage door
opener, or “GDO”) taught by the ’275 patent does not
merely receive transmissions, as did MBOs in the
prior art; instead, Chamberlain’s MBO experiences—
via an onboard controller—status conditions and then
transmits them to other devices. This improvement
eliminated the need for a “physical interface … to
support numerous potentially utilized peripheral
devices,” thus cutting out “undesired additional cost
when part of the [otherwise, necessarily installed]
interface goes unused in a given installation.” (’275
Patent 1:55-63, Dkt. 1-2).) In addition, the
improvements taught by the ’275 patent brought new
compatibility to the MBO; the prior art, by contrast,
“fail[ed] to permit compatible support of a given
peripheral,” and precluded users from coupling their
prior-art MBO with a new function “not specifically
supported by a given [MBO].” (Id. at 2:4-16.)

30a
Thus, contrary to TTI’s assertions, the ’275 patent
claims are unlike the ones in Vehicle Intelligence,
which merely specified the abstract idea of testing
operators of moving equipment for impairment and
indicated that such testing could be conducted more
quickly, accurately, and reliably by using an “expert
system” that the claims failed to define. Vehicle
Intelligence, 635 F. App’x at 917. Rather, the ’275
patent claims better fit the mold in Visual Memory
LLC v. NVIDIA Corp., 867 F.3d 1253, 1259 (Fed. Cir.
2017), where the Federal Circuit held claims patenteligible which were directed to an improved computer
memory system with programmable operational
characteristics, which “provided flexibility that prior
art processors did not possess, and obviated the need
to design a separate memory system for each type of
processor.” Core Wireless, 880 F.3d at 1362
(characterizing the findings in Visual Memory)
(emphasis added). The ’275 patent provides exactly
this enhanced flexibility, which transcends prior art
conventions. Finally, the particularity of the claims—
specifically, that the controller must experience the
status conditions—diminishes the preemption
concerns that undergird the Alice inquiry. 134 S. Ct.
at 2354.
The asserted claims are directed to patent-eligible
subject matter under § 101, so the Alice analysis ends
before we reach step two. Elec. Power Grp., LLC v.
Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir. 2016)
(citing Alice, 134 S. Ct. at 2355). TTI’s JMOL Motion
on § 101 ineligibility is denied.

31a
B. Invalidity of the ’275 Patent
1. Anticipation
Under 35 U.S.C. § 102, a patent is invalid if a
prior art reference discloses, either explicitly or
inherently, every limitation of the claimed invention.
Liebel-Flarsheim Co. v. Medrad, Inc., 481 F.3d 1371,
1381 (Fed. Cir. 2007) (citation omitted). Judgment as
a matter of law is appropriate if no reasonable jury
could find, as the one here did, that the prior art did
not anticipate, and thus invalidate, the patent. See,
Krippelz v. Ford Motor Co., 667 F.3d 1261, 1268 (Fed.
Cir. 2012) (applying Seventh Circuit JMOL
standard). As it argued at trial, TTI contends that the
Menard PCT prior art anticipated claims 1, 5, and 15
of the ’275 patent.
These claims recite:
1. A movable barrier operator comprising:
a controller having a plurality of potential
operational status conditions defined, at
least in part, by a plurality of operating
states;
a movable barrier interface that is
operably coupled to the controller;
a wireless status condition data
transmitter that is operably coupled to
the controller, wherein the wireless status
condition data transmitter transmits a
status condition signal that:

32a
corresponds to a present operational
status condition defined, at least in part,
by at least two operating states from the
plurality of operating states; and
comprises an identifier that is at least
relatively unique to the movable barrier
operator, such that the status condition
signal substantially uniquely identifies
the movable barrier operator.
5. The movable barrier operator of claim 1
wherein the plurality of operating states
includes at least one of:
moving a movable barrier in a first
direction;
moving the movable barrier in a second
direction;
reversing movement of the movable
barrier;
halting movement of the movable barrier;
detecting a likely presence of an obstacle
to movement of the movable barrier;
detecting a likely proximal presence of a
human;
receiving a wireless remote control signal;
receiving a wireline remote control signal;

33a
receiving a learning mode initiation
signal;
a lighting status change;
a vacation mode status change;
detecting a likely proximal presence of a
vehicle;
detecting the identification of a proximal
vehicle; and
receiving
an
operating
alteration signal.

parameter

15. The method of claim 14 wherein detecting
at least one predetermined condition includes
detecting at least one of:
moving a movable barrier in a first
direction;
moving the movable barrier in a second
direction
reversing movement of the movable
barrier;
halting movement of the movable barrier;
detecting a likely presence of an obstacle
to movement of the movable barrier;
detecting a likely proximal presence of a
human;

34a
receiving a wireless remote control signal;
receiving a wireline remote control signal;
receiving a learning mode initiation
signal;
a lighting status change;
a vacation mode status change;
detecting a likely proximal presence of a
vehicle; and
receiving
an
operating
alternation signal.

parameter

(’275 Patent 8:5-21, 8:30-46, 9:39-55, Dkt. 1-2.) Claim
1 identifies a movable barrier operator comprising
both a controller and a transmitter. (Id. at 8:5-21.)
But TTI did not present any evidence that the Menard
GDO 1000—as opposed to an add-on module to that
GDO—contained a controller or wireless transmitter.
Indeed, Chamberlain’s technical expert, Dr. Rhyne,
presented evidence showing that the Menard GDO
1000 and the system 10000 (the aforementioned
module) each have their own, separate controllers and
power supplies. (Id. 1297:16-1299:8.) In response to
this, TTI emphasizes that the Chamberlain claims do
not require the controller to be housed in the GDO’s
head unit. (See, Chamberlain’s Resp. to JMOL Mot. at
9, Dkt. 651 (Chamberlain admitting its asserted
claims do not require “the controller, the movable
barrier interface, and the wireless status condition
transmitter to be located in a single housing.”).) But
Chamberlain explains that the key limitation in its

35a
claims is not whether the controller and transmitter
share a housing, but instead whether they are part of
the GDO at all, instead of—as in Menard’s system
10000—part of a separate module that can send
signals to the GDO. Chamberlain presented evidence
of this distinction through Dr. Rhyne’s testimony:
A: [T]he … Menard module … has a
separate module that you add on top of the
garage door and, as a result, the controller in
the module is what sends out the state signal,
not the controller in the GDO.
…
Q: Dr. Rhyne, you were asked a couple
questions about whether the Menard module,
that modular system we discussed, system
10000, can send control signals to the GDO
1000. In your opinion, is that—does that
make the module in Menard a movable
barrier
operator
under
the
Court’s
constructions?
A: No. It’s not the movable barrier operator
in Figure 37. That movable barrier operator is
the GDO 1000 down in the bottom. The top
guy is not a movable barrier operator.
Q: And can a smartphone also send control
signals to open and close a door on a garage
door opener?
A: Yes.

36a
Q: And is a smartphone a movable barrier
operator?
A: Not in that sense, no, any more than the
pushbutton switch, the 6500 is a movable
barrier operator.
(Rhyne Tr. 1310:18-21, 1374:9-22.) This is substantial
evidence that Chamberlain’s asserted claim 1 claims
limitations not present in the prior art, so JMOL is
not appropriate as to TTI’s anticipation argument as
to claim 1.
As for claims 5 and 15, Chamberlain contends
that JMOL is not appropriate because both claims
recite a limitation that is not disclosed in the Menard
prior art. Specifically, claim 5 depends from claim 1’s
recitation of “a controller having a plurality of
potential operational status conditions defined, at
least in part, by a plurality of operating states,” and
claim 15 depends from claim 14’s recitation of “a
movable barrier operator detecting at least one
predetermined condition as corresponds to a present
operational status defined, at least in part, by at least
two operating states[.]” (See, Rhyne Tr. 1309:21-22;
Foley Tr. 871:5-8 (both citations describing dependent
relationships of claims).) In contrast, the Menard
prior art does not explain how its signals are defined:
Q. Do [Dr. Foley’s slides concerning the
Menard prior art] show a condition defined by
a plurality of states as claimed?
A. They show things that the Menard
module can report like whether the door is

37a
open, closed, or partially closing, freezing,
normal, overheating on the temperature of
the unit, but it doesn’t—there’s no disclosure
of how those things are defined, and there are
other ways to do it than having states that
would define those conditions.
Q. Can you provide us one example?
A. A good one would be door position. You
can report the number of times the motor has
turned, so the rotations. And every rotation
incrementally pulls the door up or, if it’s going
the other way, it lets it down a little bit. And
then you can leave it up to the receiver at the
other end to decide how many rotations is it
going to take to get the door open, how many
is it going to take to get the door to close. And
if it sees the rotations coming at a different
speed, it knows that it’s partially closing.
Those are not reporting specific states in the
message itself.
(Rhyne Tr. 1307:16-1308:9.) Simply put, the jury
heard substantial evidence that while the Menard
PCT status conditions could be defined in a number of
ways, Chamberlain’s ’275 claims limit its status
conditions to one type of definition. Because that
limitation appears only in the asserted claims, the
Menard prior art does not anticipate them. See,
Liebel-Flarsheim Co., 481 F.3d at 1381.

38a
2. Obviousness
TTI also contends that the Cohen prior art
renders the asserted claims obvious. Under 35 U.S.C.
§ 103, “[o]bviousness is a question of law based on
underlying findings of fact.” Wyers v. Master Lock Co.,
616 F.3d 1231, 1237 (Fed. Cir. 2010) (citation
omitted). The underlying factual inquiries include: (1)
the scope and content of the prior art, (2) the
differences between the prior art and the claims at
issue, (3) the level of ordinary skill in the art, and (4)
any relevant secondary considerations, such as
commercial success, long felt but unsolved needs, and
the failure of others. Id. (citing Graham v. John Deere
Co., 383 U.S. 1, 17-18 (1966)).
TTI contends that a person of ordinary skill in the
art would have been motivated to combine the
Menard PCT door-position prior art discussed earlier
with the Cohen prior art, which TTI maintains
teaches the signal format recited in the ’275 patent.
But at trial, Chamberlain presented evidence
showing that the Cohen prior art does not claim
sending status conditions defined by two or more
states. (Rhyne Tr. 1312:3-9 (“All [the Cohen
reference] does is it talks about a state signal that
indicates in a way that is not described that the door
is opening, closing, opening, or closing. And as I said,
there are certainly ways to do it that doesn’t involve
sending a state—a status condition signal that gives
you two states as, for example, that rotational
information as an alternative.”).) Further, Dr. Rhyne
explained that just like the Menard prior art, the
Cohen reference teaches an add-on modular device,
meaning that once again a controller in the module

39a
sends out the signal—not the controller in the GDO
itself. (Rhyne Tr. 1310:11-21.) Because, according to
Dr. Rhyne’s testimony, this combination does not
teach the limitations of the ’275 patent claims, the
jury heard substantial evidence supporting a finding
of nonobviousness. See, Hearing Components, Inc. v.
Shure Inc., 600 F.3d 1357, 1374 (Fed. Cir. 2010),
abrogated on other grounds by Nautilus, Inc. v. Biosig
Instruments, Inc., 134 S. Ct. 2120 (2014).
C. Literal Infringement of the ’275 Patent
This argument is nothing new. TTI moved for pretrial summary judgment of non-infringement of the
’275 patent, and the Court denied that motion. (June
21, 2017, Order, Dkt. 397.) TTI posits once more that
the Ryobi signal does not “correspond[] to a present
operational status condition defined, at least in part,
by at least two from the two or more operational
conditions being experienced by the controller,” as
recited in claims 1 and 24. Chamberlain, 2017 WL
1304559 (emphasis added). According to TTI, this is
so
because
the
Ryobi
controller
cannot
simultaneously experience two operational conditions
given that—in TTI’s reading—such conditions are
mutually exclusive, e.g., “[t]he controller cannot
simultaneously be experiencing door open, closed,
opening, closing, or fault.” (Mem. in Supp. at 18, Dkt.
618.) But as the Court has already noted, this
contention misses the mark: “[M]any (if not all) GDO
components contain multiple potential but mutually
exclusive positions or states, making it unclear how a
transmitter as [TTI] conceive[s] [is recited by the ’275
patent] would even be operative.” (June 21, 2017,
Order at 4, Dkt. 397.) In short, TTI’s renewed

40a
argument depends upon a narrow reading of
“operational status condition” which does not square
with this Court’s earlier construction of the term as
encompassing status conditions of other categories of
information the controller may experience (for
example, light on/off, vacation mode on, etc.). (See, id.
at 5-6 (“[a present] status condition [may] be defined
(or determined, or its meaning clarified) by multiple
operational conditions being experienced by the
controller (for example, lights on in tandem with, as a
result of, or in response to the garage door’s opening,
a sensor’s detection of a proximal vehicle, or a user’s
flipping the vacation mode switch).”).)
Claim 1 recites a transmitter that transmits “a
status condition signal that: corresponds to a present
operational status condition defined, at least in part,
by at least two operating states from the plurality of
operating states … ” (’275 Patent 8:13-17, Dkt. 1-2.)
At trial, Chamberlain’s evidence demonstrated that
the Ryobi GDOs (both the GD200 and the revised,
GD200A) do exactly that. Dr. Rhyne explained that in
both versions of the Ryobi GDO, the device “send[s] a
signal corresponding to a present operational status
condition.” (Rhyne Tr. 288:4-5.) Such a signal (for
example, “light on”) is defined both by the status
condition it carries and the potential, but not present,
condition(s) it necessarily precludes (in this example,
“light off”). (See, June 21, 2017, Order at 4, Dkt. 397
(indicating that Court’s Markman order did not limit
the operational conditions that are “experienced by
the controller and capable of defining its operational
status condition(s)” to only potential or to only present
status conditions).) Dr. Rhyne explained as much to
the jury:

41a
[N]otice this light state [in the Ryobi
electronic system architecture and design
specifications]. This is the status condition on
the light, and it’s got two states. Remember,
we had to have a plurality of states, two or
more: Off and on. This is the status condition
for the door. It’s got five states: Closed, open,
closing, opening, or a fault. … [Y]ou can see
here are those five states that are available.
So I’ve got a status for the door defined by five
possible states, the same words [as in the ’275
patent].
(Rhyne Tr. 275:15-20, 277:14-17.) Chamberlain
presented the jury with substantial evidence that
accorded with the Court’s claim constructions
showing that the device taught by the ’275 patent and
the Ryobi GDOs send signals defined in the same way.
A reasonable jury hearing this testimony could find
literal infringement, so the Court will not grant TTI’s
JMOL and vacate that finding.
D. Doctrine of Equivalents Infringement of the
’275 Patent
“The doctrine of equivalents allows the patentee
to claim those insubstantial alterations that were not
captured in drafting the original patent claim but
which could be created through trivial changes.”
AquaTex Indus., Inc. v. Techniche Sols., 419 F.3d
1374, 1382 (Fed. Cir. 2005) (quoting Festo Corp. v.
Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722,
733 (2002)). Here, TTI marshals two arguments
against the jury’s finding that TTI infringed the ’275
patent under the doctrine of equivalents. First, TTI

42a
contends that because Chamberlain narrowed its
claims during prosecution, it is estopped from arguing
the doctrine of equivalents. Second, TTI argues that
even if Chamberlain is not so estopped, Chamberlain
nevertheless failed to present the jury with
substantial evidence on the equivalents theory.
Neither argument is persuasive.
1. Prosecution History Estoppel
We have seen TTI’s first argument before, in
rebuttal to Chamberlain’s pretrial motion to enforce
the Court’s preliminary injunction. (Dkt. 228 at 1011.) Once more, the argument runs like this: Under
Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co.,
535 U.S. 722, 736, 740 (2002), once a patent applicant
narrows his application via amendment and thus
relinquishes subject matter, the applicant cannot
later rely on the doctrine of equivalents to claim
infringement by a device that falls between the
broader and the narrower language, unless the
applicant can show the amendment does not
surrender the particular equivalent. See, Festo, 535
U.S. at 740; accord Salazar v. Procter & Gamble Co.,
414 F.3d 1342, 1344 (Fed. Cir. 2005) (“The doctrine of
prosecution history estoppel serves to limit the
doctrine of equivalents when an applicant makes a
narrowing amendment for purposes of patentability,
or clearly and unmistakably surrenders subject
matter by arguments made to an examiner.”).
According to TTI, Chamberlain interjected such a
limitation during the prosecution of ’275 patent to
overcome the Examiner’s initial rejection of
independent claim 1 based on the Doyle reference.

43a
The Court previously summarized the pertinent
prosecution history as follows:
In the relevant amendment and remarks, the
Applicant traversed Doyle by citing to Figure
2 of the Doyle and its associated text, which
disclose a mercury switch oriented within a
radio frequency (“RF”) transmitter where the
mercury bead only causes transmission of the
RF signal when the garage door is in an
intermediate position. The Application
contrasted this facet of Doyle, in which the
transmitted RF signal is keyed to a single
position or state of Doyle’s garage door, with
its amended claims, which “require a wireless
status condition data transmitter to transmit
a status condition signal that corresponds to
a present operational status condition
defined, at least in part, by at least two
operating states from the plurality of
operating states.”
Chamberlain, 2017 WL 368027, at *5 (citing File
History, App. No. 10/477,633, June 15, 2005,
Amendment at 12 (emphasis in original)). Thus,
“Doyle could only ever be defined by one operating
state: a single intermediate position of a garage door,
as opposed to the dual operating states of
open/closed.” (Id. at 14-15.)
The problem with TTI’s argument is that even if
Chamberlain’s prosecution amendments narrowed
the ’275 patent, TTI’s Ryobi GD200A does not fall
“between the broader and the narrower language.”
Festo, 535 U.S. at 740. As discussed above, Dr. Rhyne

44a
explained that both the Ryobi and Chamberlain
GDOs use status conditions defined by a plurality of
states (e.g., two states—on and off—define the status
condition of the light; five states—closed, open,
closing, opening, and fault—define the status of the
door, etc.). (See, Rhyne Tr. 275:15- 20, 277:14-17.) TTI
now makes much of another part of Dr. Rhyne’s
testimony, which TTI takes as proof that Dr. Rhyne
later reversed his position and agreed that the Ryobi
status conditions are defined by only one state at a
time. However, TTI’s selection of that testimony
leaves out Dr. Rhyne’s clarification and is not
representative. The full selection is this:
Q: So I asked you this question [in your
deposition], Dr. Rhyne. “So if we’re talking
about the present operational status
condition,” present operational status
condition, “of the door, at any point in time, it
is only defined by one of the states that the
door can be in, correct?” And you asked me,
“One of the operating states?” I said,
“Correct.” And your answer was, “Yes,”
correct?
A: I interpreted what you asked me to mean
as I did the previous one, what’s in that
transmitted status condition that’s sent out
by the data transmitter. There’s always only
one in the message. There’s not two.
Q: That’s right, because the signal is defined
by the one state that the door can be in, as
your answer said here, correct?

45a
A: When you transmit the present
operational status condition, you transmit
only one of the states.
Q: And that’s what defines that signal,
correct?
A. At that time, you send out that one.
(Rhyne Tr. 354:4-22.) As Dr. Rhyne’s clarification
makes clear, he did not opine that the Ryobi devices
operated based on status conditions defined at a given
time by only one state; rather, Dr. Rhyne simply
described the signal format of the GD200A device,
which sends several discrete pings of data seriatim
rather than sending a single batch, as does the prerevision GD200. To the extent Chamberlain narrowed
its claims during prosecution, TTI has not shown that
its Ryobi GDOs fall between the broader and
narrower language. See, Festo, 535 U.S. at 740
(holding that applicants only surrender equivalents
falling between the broader and narrower, postamendment language). As such, TTI has failed to
show that prosecution estoppel should have precluded
Chamberlain from presenting its equivalents theory
to the jury.
2. Substantial Evidence of Equivalents
Next, TTI argues that Chamberlain failed to
present the jury with substantial evidence on the
doctrine of equivalents theory. Such evidence must
establish “equivalency on a limitation-by-limitation
basis by particularized testimony and linking
argument as to the insubstantiality of the differences

46a
between the claimed invention and the accused device
or process.” Akzo Nobel Coatings, Inc. v. Dow Chem.
Co., 811 F.3d 1334, 1342 (Fed. Cir. 2016) (internal
quotations omitted) (quoting Tex. Instruments Inc. v.
Cypress Semiconductor Corp., 90 F.3d 1558, 1566
(Fed. Cir. 1996)).
Here, TTI argues that Chamberlain failed
generally to provide evidence showing equivalents for
claims 5 and 14 and failed specifically to provide
equivalency evidence of the unique identifier
limitation required in claims 1 and 14. These
assertions do not accurately describe the evidence
presented as trial. Dr. Rhyne clearly articulated the
basis for his belief concerning equivalency for claim 1.
(Rhyne Tr. 267:16-296:9 (concluding with “[w]e have
[now discussed every element of claim 1], and I’ve
explained why in my opinion each and every element
is met either literally under the way I think the claim
ought to be interpreted or under the doctrine of
equivalents under the way TTI thinks it should be
interpreted.”).) Claim 5 incorporates all of the
limitations of claim 1, which Dr. Rhyne explained at
trial: “[Claim 5] basically is what’s called a dependent
claim. So it starts out by saying ‘the movable barrier
operator of Claim 1.’ So to infringe claim 5, you’ve got
to meet all the limitations of claim 1.” (Rhyne Tr.
296:13-16.) At trial, then, Chamberlain needed to
present evidence of infringement under the doctrine
of equivalents for all limitations of claim 1—which, as
discussed, it did—as well as for the limitation unique
to claim 5. That remaining limitation concerns the
’275 patent’s reliance on a “plurality of operating
states [that] includes at least one of” any of the
fourteen listed states, including, for example, “moving

47a
a movable barrier in a first direction; moving the
movable barrier in a second direction; … halting
movement of the movable barrier; … receiving a
wireless remote control signal; … [and] a lighting
status change.” (’275 Patent 8:30-36, Dkt. 1-2.) There
was no shortage of evidence at trial concerning the
Ryobi GDO’s equivalent use of a “plurality of
operating states.” (See, e.g., Rhyne Tr. 275:15-20
(reciting operating states in Ryobi GDO, including
light states and door position states), 354:4-22
(discussing plurality of operating states in Ryobi
GDO).)
As to claim 14: Dr. Rhyne testified that claim 15
depends from claim 14. He also testified that the
Ryobi devices infringe on all of the elements in claim
14, including the two elements that do not also appear
in claim 1. (Rhyne Tr. 298:23-299:24.) TTI’s final
argument—that Chamberlain failed to present
evidence concerning the unique identifier limitation
required in claims 1 and 14—similarly ignores
testimony and thus fails. (Rhyne Tr. 294:15-295:3
(explaining the unique identifier recited in claim 1
and describing a similar unique identifier employed
by
the
Ryobi
devices).)
In
sum,
TTI’s
characterizations of the evidence produced at trial are
not accurate. Through Dr. Rhyne, Chamberlain
produced substantial evidence in support of its
doctrine of equivalents theory on a limitation-bylimitation basis. See, Akzo Nobel, 811 F.3d at 1342.
TTI’s JMOL Motion on this ground is denied.

48a
E. TTI Induces Infringement of the ’275 Patent
TTI has no argument here. “Inducement can be
found where there is ‘[e]vidence of active steps taken
to encourage direct infringement,’ which can in turn
be found in ‘advertising an infringing use or
instructing how to engage in an infringing use.’”
Takeda Pharm. U.S.A., Inc. v. W.-Ward Pharm. Corp.,
785 F.3d 625, 630-31 (Fed. Cir. 2015) (quoting MetroGoldwyn-Mayer Studios Inc. v. Grokster, Ltd., 545
U.S. 913, 936 (2005)). “Such instructions need to
evidence ‘intent to encourage infringement.’” Id.
(quoting Vita-Mix Corp. v. Basic Holding, Inc., 581
F.3d 1317, 1329 (Fed. Cir. 2009)). Dr. Rhyne testified
about advertising language appearing on the Ryobi
website and Ryobi’s GDO packaging that showcases
the capability to “[m]ake your garage smart. Control,
monitor, and personalize your garage door remotely.”
(Rhyne Tr. 306:12-307:24.) And the jury found that
the Ryobi devices infringe the ’275 patent. A
reasonable jury having made that determination
could further find that Ryobi’s advertisements
encouraging users to deploy Ryobi GDOs for an
infringing use constitute inducement. TTI’s JMOL
Motion is denied on this ground.
F. Willful Infringement of the ’275 Patent
The Court will not overturn the jury’s finding that
TTI willfully infringed the ’275 patent. As set forth in
greater detail below, the jury heard evidence that TTI
knew before it developed the Ryobi GD200 that: (1)
Chamberlain had a broad GDO-related patent
portfolio, (2) as such, development in the GDO space
would be hazardous, and (3) the ’275 patent existed

49a
and covered Chamberlain’s GDO. (See, infra at Part
IV.) TTI’s repeated assertion that its engineers who
deconstructed the Chamberlain GDO “did not see” the
’275 patent marking on the device is at this point
feckless. (Mem. in Supp. of JMOL at 26, Dkt. 618.)
The jury heard this, too, and apparently found it
incredible or at least not exculpating in light of the
many other ways TTI was put on notice of the ’275
patent and the general dangers of possibly treading
on Chamberlain’s GDO IP. (See, infra at Part IV.)
TTI’s JMOL Motion is denied as to the jury’s
willfulness determination.
G. Invalidity of ’966 Patent Based on Prior Art
1. Craftsman Prior Art – Anticipation
At trial, the parties’ experts debated whether a
Craftsman GDO in prior art anticipated the ’966
patent. Through related testimony, the jury heard
substantial evidence of a limitation recited by the ’966
claims that is not disclosed by the Craftsman prior
art. 35 U.S.C. § 102; Liebel-Flarsheim Co., 481 F.3d at
1381 (reciting that patent claims are invalid as
anticipated by prior art only if that art discloses every
limitation of the claimed invention).
Claim 9 recites:
9. A battery
comprising:

charging

apparatus,

a battery charging station in electrical
communication with a rechargeable battery
and in electrical communication with a head

50a
unit of a barrier movement operator for
supplying power to at least one rechargeable
battery, the at least one rechargeable battery
being removably connectable to electrically
powered equipment other than and physically
separate or separable from the barrier
movement operator to provide power to the
electrically powered equipment; and
circuitry electrically connected to the battery
charging station to supply power from the at
least one rechargeable battery to the head
unit.
(’966 Patent 8:8-22, Dkt. 1-1.) Although claim 9
recites a “removably connectable” battery, the
Craftsman GDO recites no such limitation. The Court
construed “removably connectable” as “configured to
allow a user to insert, plug in, or otherwise manually
attach and detach.” Chamberlain, 2017 WL 1304559,
at *24; accord Rhyne Tr. 1317:9-12 (reciting same).
The Ryobi GDOs have batteries that “just snap[] out,”
but the Craftsman GDO battery is attached by screws
to either the top of the GDO or to the ceiling above the
GDO. (Rhyne Tr. 1316:17-1318:6.) According to Dr.
Rhyne, the Craftsman battery must be screwed in one
way or another, because otherwise the battery could
fall off the unit when it vibrates while raising or
lowering the door. (Id. at 1316:17-21.) In contrast,
TTI’s technical expert, Dr. Foley, maintained that a
user’s ability to remove those screws rendered the
Craftsman battery removably connectable, but Dr.
Rhyne rebutted that interpretation:

51a
I think [that in explaining his position as to
why the Craftsman battery is removable
connectable, Dr. Foley] said, ‘Well, I could go
up there and undo the screws or something.’
That certainly isn’t something that the typical
garage door user—think about it for yourself.
Are you going to go up there, back your car
out, get up on a ladder, and go up and unscrew
it just so you can move it to another garage
door, maybe if you have a two-car garage,
especially when that other door already has a
battery bolted on top of it to start with. That’s
just
not—that’s
not
a
reasonable
interpretation of the claim.
(Rhyne Tr. 1317:16-24.) The jury apparently credited
Dr. Rhyne’s interpretation, which the Court agrees
provided substantial evidence from which the jury
reasonably could have concluded that the Craftsman
prior art did not anticipate the ’966 patent. See,
Akamai Techs., Inc. v. Cable & Wireless Internet
Servs., Inc., 344 F.3d 1186, 1192 (Fed. Cir. 2003).
But there is more. There is another limitation in
claim 9 which the parties debate at length. That claim
discloses a battery removably connectable “to
electrically powered equipment other than and
physically separate or separable from the barrier
movement operator.” (’966 Patent 8:15-17, Dkt. 1-1.)
At trial, Dr. Foley opined that the other electrically
powered equipment disclosed here could be a second
GDO, and that such an arrangement is possible under
the Craftsman prior art. Dr. Rhyne disagreed, and
relied on the specification for his conclusion that the
other equipment cannot simply be a second GDO, and

52a
thus the ’966 patent discloses a limitation not present
in Craftsman. (Rhyne Tr. 1315:10-1316:11.) “[W]hen
there is conflicting testimony at trial, and the
evidence overall does not make only one finding on the
point reasonable, the jury is permitted to make
credibility determinations and believe the witness it
considers more trustworthy.” MobileMedia Ideas,
LLC v. Apple Inc., 780 F.3d 1159, 1168 (Fed. Cir.
2015) (citation omitted). The evidence did not make
only one of the witnesses’ interpretations reasonable,
so the Court will not disturb the jury’s finding that
Craftsman did not anticipate the ’966 patent.
2. Crusius Prior Art – Anticipation and
Obviousness
Parallel problems doom TTI’s JMOL Motion
concerning the Crusius prior art. As with Craftsman,
TTI maintains that Crusius anticipates the ’966
patent. But Dr. Rhyne testified that Crusius does not
invalidate any of the ’966 claims because the Crusius
patent “covers essentially the same thing as the
Craftsman battery.” (Rhyne Tr. 1324:7-19.) He added
that the Crusius patent does not disclose a
“removably connectable” battery nor any separate
equipment that could be powered by the battery. (Id.)
Dr. Foley contradicted this latter finding in much the
same way as he did Dr. Rhyne’s opinions on
Craftsman, that is, by explaining that the Crusius
battery could be plugged into a second GDO and
thereby satisfy the “powered equipment other than
and physically separate or separable from” limitation.
Again, Dr. Rhyne explained that the ’966 specification
required “separate” equipment other than a second
GDO, and the jury was entitled to credit his

53a
interpretation over Dr. Foley’s competing one.
MobileMedia Ideas, 780 F.3d at 1168.
As for obviousness, TTI does not articulate any
justification for its belief that no reasonable jury could
have failed to find that the Crusius prior art renders
obvious the asserted claims. And to any extent,
Chamberlain points out that Dr. Rhyne testified
regarding
secondary
considerations
of
nonobviousness which the jury may, and apparently
did, choose to credit. See, Transocean Offshore
Deepwater Drilling, Inc. v. Maersk Drilling USA, Inc.,
699 F.3d 1340, 1349 (Fed. Cir. 2012) (considering
commercial success, industry praise, unexpected
results, copying, industry skepticism, licensing, and
long-felt but unsolved need in the court’s analysis of
secondary indicia of nonobviousness). Specifically, Dr.
Rhyne described an internal patent disclosure filled
out by TTI employees describing an idea similar to the
’966 patent claims:
Q: Okay. And then the last topic for you, Dr.
Rhyne, secondary considerations with respect
to the ’966 patent. Have you seen any
secondary considerations to show that the
’966 claims are not obvious?
A: Yes.
…
[Introducing the internal patent disclosure]
…

54a
A. [Reading from the disclosure:] “Our idea
is to power the garage door opener from one
or more removable battery packs such as a
power tool battery. … Another facet of this
invention is the ability to potentially charge
the battery packs while inserted into the
garage door.” They’re saying they thought
that this was something, evidence of a
long-felt need. Unfortunately, it was. It’s
just that the need had already been met by
Chamberlain.
Q. Exactly. And just for clarity, this is a form
by TTI that was filled out, I guess, before or
after the ’966 patent?
A. After.
(Rhyne Tr. 1324:20-1326:2 (emphasis added).)
According to Dr. Rhyne, TTI’s internal patent
disclosure demonstrated an industry-perceived, longfelt need for a GDO using a removably connectable,
rechargeable battery, which is exactly what the ’966
patent teaches. Chamberlain thus presented the jury
with a nexus between the evidence and the merits of
the claimed invention as required for the jury to
accord
these
secondary
considerations
of
nonobviousness substantial weight. FastShip, LLC v.
United States, 131 Fed. Cl. 592, 620 (2017) (quoting
Wyers v. Master Lock Co., 616 F.3d 1231, 1246 (Fed.
Cir. 2010)).
In sum, because the jury heard substantial
evidence that the Crusius prior art neither
anticipated nor rendered obvious the ’966 patent

55a
claims, TTI has no basis for JMOL relief stemming
from Crusius.
3. Weik Prior Art – Anticipation and
Obviousness
TTI’s contentions concerning the Weik prior art
ultimately meet with the same outcome as the other
prior art arguments considered above. The Weik
patent teaches a motor-operated door, and discloses
“two different embodiments, one of which has a
portable battery and no charger and one of which has
a non-portable battery but does have a charger.”
(Rhyne Tr. 1322:2-1323:3.) TTI does not argue that
either embodiment, on its own, anticipates or renders
obvious the ’966 patent. Instead, TTI argues these
problems arise for the ’966 patent once the two Weik
embodiments are combined. Neither of these
arguments meets the high bar required to merit
JMOL.
First,
to
obviousness:
“Combining
two
embodiments disclosed adjacent to each other in a
prior art patent does not require a leap of
inventiveness”; accordingly, such combinations can
render an asserted patent obvious. Boston Sci.
Scimed, Inc. v. Cordis Corp., 554 F.3d 982, 991 (Fed.
Cir. 2009). However, “[o]bviousness may be defeated
if the prior art indicates that the invention would not
have worked for its intended purpose or otherwise
teaches away from the invention.” Meiresonne v.
Google, Inc., 849 F.3d 1379, 1382 (Fed. Cir. 2017)
(citing DePuy Spine, Inc. v. Medtronic Sofamor
Danek, Inc., 567 F.3d 1314, 1326 (Fed. Cir. 2009)). “A
reference teaches away ‘when a person of ordinary

56a
skill, upon reading the reference, would be
discouraged from following the path set out in the
reference, or would be led in a direction divergent
from the path that was taken’ in the claim.” Id.
(quoting Galderma Labs., L.P. v. Tolmar, Inc., 737
F.3d 731, 738 (Fed. Cir. 2013)). Dr. Rhyne explained
at trial that the Weik patent teaches away from
combining the two embodiments: The integrated
charger embodiment offers the benefit of not
requiring service personnel to bring a rechargeable
battery with them when they service the motoroperated door taught by Weik, and, further, if service
personnel brought a rechargeable battery to such a
door, the trickle charger—which is designed to keep
the plugged-in battery always charged—would take
“a couple of hours” to charge the newly installed
battery. (Rhyne 1321:23-1324:6.) Dr. Foley expressed
a competing opinion, noting that the Weik patent
teaches that “there are many ways to interconnect
various electrical elements to achieve the functions [of
the Weik invention],” which Dr. Foley took as
“teaching … to take the trickle charger from [the
integrated embodiment] and drop it [into the nonintegrated embodiment].” (Foley Tr. 940:20-941:4.)
But once more, because Dr. Foley’s is not the only
reasonable interpretation on this point, the Court will
not overrule the jury’s apparent credit for Dr. Rhyne’s
testimony over his counterpart’s. MobileMedia Ideas,
780 F.3d at 1168.
Next, to anticipation: TTI correctly points out in
its reply that whether prior art “teaches away” from
combinations is only a part of the obviousness
analysis and “is not relevant to an anticipation
analysis.” Krippelz v. Ford Motor Co., 667 F.3d 1261,

57a
1269 (Fed. Cir. 2012) (citation omitted) (emphasis
added). As such, Dr. Rhyne’s testimony concerning
the Weik patent’s teaching away from combining its
embodiments cannot be substantial evidence against
anticipation. Given this, TTI suggests that combining
the embodiments covers every limitation in the ’966
patent, and so the Weik combination anticipates, and
thus invalidates, the patent. TTI’s argument is faulty.
Though combinations of adjacently disclosed
embodiments may be considered under the
obviousness analysis, the same is not true for
anticipation. See, Microsoft Corp. v. Biscotti, Inc., 878
F.3d 1052, 1069 (Fed. Cir. 2017) (citations omitted)
(“[A]nticipation is not proven by ‘multiple, distinct
teachings that the artisan might somehow combine to
achieve the claimed invention.’”). TTI suggests that
Dr. Foley testified that “it is appropriate to use
elements from the two figures in his anticipation
analysis.” (Resp. at 36, Dkt. 618 (citing Foley Tr.
940:3-15, 1023:18-19).) If this was Dr. Foley’s method,
it was improper as a matter of law. And because Dr.
Foley conceded that no one Weik embodiment
anticipates all of claim 9’s limitations, the jury was
entitled to find that the Weik patent did not
anticipate that claim. (See, Foley Tr. 1023:14-19 (“Q:
[Y]ou couldn’t get all the elements of the claim here
from one of the embodiments, you needed to mix and
match from the two embodiments; is that right? A: I
pulled from both as Weik very clearly says
modifications are expected.”).) TTI’s JMOL Motion is
denied on these grounds.

58a
H. Literal Infringement of ’966 Patent
Dr. Rhyne walked through each element of each
of claims 9, 14, and 15-18 of the ’966 patent and
explained that the Ryobi GDO infringes each one.
(Rhyne Tr. 318:11-328:1.) Against this evidentiary
backdrop, TTI argues that a reasonable jury still
could not find TTI literally infringed because the ’966
patent recites “a battery charging station in electrical
communication with a rechargeable battery” and “a
method of power flow between at least one
rechargeable battery, a barrier movement operator,
[and] electrically powered equipment other than and
physically separate or separable from the barrier
movement operator.” (’966 Patent 8:10-11, 40-44, Dkt.
1-1 (emphasis added).) TTI maintains, not for the first
time, that because it does not sell the Ryobi GDOs
with rechargeable batteries or any other, separate
electrical equipment, they cannot be found to have
infringed the ’966 patent.
While “one may not be held liable under § 271(a)
for ‘making’ or ‘selling’ less than a complete
invention,” Rotec Indus., Inc. v. Mitsubishi Corp., 215
F.3d 1246, 1252 (Fed. Cir. 2000), several courts have
found that where an alleged infringer sells “all of the
elements of the patented combination as a single,
albeit disassembled, unit,” reasonable juries may find
that the defendant sells a complete system and thus
infringes. EBS Auto. Servs. v. Ill. Tool Works, Inc., No.
09 CV 996, 2011 WL 4021323, at *8 (S.D. Cal. Sept.
12, 2011); see also, St. Clair Intellectual Prop.
Consultants, Inc. v. Toshiba Corp., No. CV 09-354,
2014 WL 4253259, at *3 (D. Del. Aug. 27, 2014)
(denying defendant’s motion for summary judgment

59a
on non-infringement where defendant sold “separate
components that, if attached together, may infringe
the patent”); Immersion Corp. v. Sony Computer
Entm’t Am., Inc., 2005 U.S. Dist. LEXIS 4777, at *1617 (N.D. Cal. Jan. 10, 2005) (denying JMOL where
defendant advertised and sold the accused products
as part of a “system,” frequently highlighted
compatibility between those separately sold elements,
and end-users needed only perform “a few simple
steps” to connect the elements, even though end-users
could use combined system in non-infringing manner
if they so chose).
Here, Chamberlain presented evidence that the
Ryobi GDOs and the Ryobi battery are configured to
fit and operate together, and that both the GDOs’
packaging and a video on the Ryobi website suggest
coupling the GDO and the battery. (Rhyne Tr. 407:10408:21.) Dr. Rhyne further testified that “[This is] the
way Ryobi advertises. It’s part of all of the benefits
and features of this system. It’s important to have
that battery in there to give you backup in case the
AC power goes out.” (Id. 408:18-21.) In addition, Dr.
Rhyne testified that at some point (though no longer)
Ryobi gave consumers a free battery when they
purchased a GDO. (Id. 328:18-24.) From this
testimony, a reasonable jury could conclude that TTI’s
sale of its GDO and battery comprise a complete
system which infringes the ’966 patent.
Finally, TTI’s argument that Chamberlain failed
to produce substantial evidence showing the Ryobi
GDOs infringe the limitation in claims 15-18
concerning a method of power flow between a
rechargeable battery, a barrier movement operator,

60a
and “electrically powered equipment other than and
physically separate or separable from the barrier
movement operator” fairs no better. Dr. Rhyne
testified that the Ryobi system provided power from
the battery to other electrically powered equipment
such as “drills, saws, and flashlights.” (Rhyne Tr.
326:14; accord id. at 327:23-328:1.) TTI’s Motion for
JMOL on literal infringement of the ’966 patent is
denied.
I. Induced Infringement of ’966 patent
To win a claim for induced infringement, a
plaintiff must prove specific intent and action to
induce infringement. Cleveland Clinic Found. v. True
Health Diagnostics LLC, 859 F.3d 1352, 1364 (Fed.
Cir. 2017). TTI points to evidence that approximately
eighty percent of Ryobi GDO purchasers do not use
rechargeable, Ryobi One+ batteries in conjunction
with their GDO, and that “where a product has
substantial noninfringing uses, intent to induce
infringement cannot be inferred even when the
[alleged inducer] has actual knowledge that some
users of its product may be infringing the patent.”
Warner-Lambert Co. v. Apotex Corp., 316 F.3d 1348,
1365 (Fed. Cir. 2003). However, “liability for active
inducement may be found ‘where evidence goes
beyond a product’s characteristics or the knowledge
that it may be put to infringing uses, and shows
statements or actions directed to promoting
infringement.’” AstraZeneca LP v. Apotex, Inc., 633
F.3d 1042, 1059 (Fed. Cir. 2010) (quoting Grokster,
545 U.S. at 935) (citation omitted). “Evidence of active
steps … taken to encourage direct infringement, such
as advertising an infringing use or instructing how to

61a
engage in an infringing use, show an affirmative
intent that the product be used to infringe.” Id.
(quoting Grokster, 545 U.S. at 936).
Here, Dr. Rhyne testified that TTI encourages
consumers to use a Ryobi One+ battery with the Ryobi
GDO. Specifically, Dr. Rhyne described how TTI
advertised, including on the Ryobi GDO packaging,
that the GDO was battery compatible and that the
two should be combined. (Rhyne Tr. 328:2-330:15.)
This suffices for substantial evidence from which a
reasonable jury could conclude that TTI took action
directed to promoting infringement. See, AstraZeneca,
633 F.3d at 1059. In light of that, the Court will not
disturb the jury’s findings by granting JMOL.
J. Willful Infringement of the ’966 Patent
As with the ’275 patent, the Court declines to
overturn the jury’s finding that TTI willfully
infringed the ’966 patent. The jury heard evidence
that TTI investigated possible IP pitfalls and learned
about the ’966 patent as far back as 2010. (See, e.g.,
Huggins Tr. 609:23-611:10.) And yet, as described
more fully below, the jury heard very little, if any,
evidence of TTI taking steps to avoid infringing the
’966 patent, even though TTI was well aware of it.
(See, infra at Part IV.) A reasonable jury could well
conclude from this evidence that TTI willfully
infringed the ’966 patent, so the Court will not grant
JMOL on this ground.

62a
K. Damages Verdict
At last, TTI challenges the jury’s finding that
Chamberlain is entitled to lost profits damages. One
useful, but non-exclusive method to establish a
patentee’s entitlement to lost profits is the Panduit
test, which requires four showings: (1) “demand for
the patented product”; (2) “absence of acceptable
noninfringing substitutes”; (3) “manufacturing and
marketing capability to exploit the demand”; and (4)
“the amount of profit that … would have [been]
made.” Georgetown Rail Equip. Co. v. Holland L.P.,
867 F.3d 1229, 1241 (Fed. Cir. 2017) (quoting Panduit
Corp. v. Stahlin Bros. Fibre Works, 575 F.2d 1152,
1156 (6th Cir. 1978)) (alternations in original).
TTI argues that Chamberlain could not satisfy
the second Panduit factor because the Genie Aladdin
Connect was an acceptable, noninfringing substitute
available on the market during the relevant
timeframe. True, the evidence at trial demonstrated
that the Aladdin Connect was available, (Hansen Tr.
491:7-11), and non-infringing, (Rhyne Tr. 392:18-22),
but it does not necessarily follow that it was also an
“acceptable substitute.” TTI puts a lot of stock in one
selection from testimony given by Chamberlain’s
damages expert, Mr. Hansen. Shortly after Hansen
acknowledged that Home Depot sold the Aladdin
Connect during the relevant timeframe, the following
exchange occurred:
Q. And so at least as far as Home Depot is
concerned, that system is acceptable?

63a
A. It’s—it’s an alternative. It’s an alternative
that they make available for their customers,
provide an additional choice.
Q. It’s an acceptable alternative to Home
Depot?
A. I would agree that it’s acceptable to Home
Depot. I wouldn’t expect them to sell products
that they don’t think are acceptable at some
level.
(Hansen Tr. 492:2-10.) But all Hansen says here is
that Home Depot finds the Aladdin Connect to be an
acceptable product to stock and sell. Absent from this
selection is any indication that this product, beyond
being an acceptable “alternative,” is an acceptable
substitute for the infringing Ryobi GDOs. The “[m]ere
existence of a competing device does not make that
device an acceptable substitute.” TWM Mfg. Co. v.
Dura Corp., 789 F.2d 895, 901 (Fed. Cir. 1986).
Further, a “product lacking the advantages of that
patented can hardly be termed a substitute
‘acceptable’ to the customer who wants those
advantages.” Id. (quoting Panduit Corp., 575 F.2d at
1162). The Aladdin Connect does not share the
advantages of the infringing Ryobi GDOs and so TTI
cannot hold it out as an acceptable substitute. For
one, the Aladdin Connect employs a separate,
powered wall control and a door sensor, which require
additional setup, providing a greater chance for
“frustration and/or failure.” (Sorice Tr. 182:5.) The
Aladdin Connect thus lacks the out-of-the-box
connectivity that, according to the record, makes the
Chamberlain and Ryobi GDOs uniquely attractive to

64a
vendors and customers alike. (See, Farrah Tr. 519:48; accord Hansen Tr. 483:2-484:12, 497:6-498:12.)
On the basis of this evidence, a reasonable jury
could find “a reasonable probability” that the Ryobi
GDO sales would not have been made but for the
infringement. See, Presidio Components, Inc. v. Am.
Tech. Ceramics Corp., 702 F.3d 1351, 1361 (Fed. Cir.
2012) (citation omitted). The jury’s damages finding
will thus stand.
II. TTI’s Motion for a New Trial
Under Federal Rule of Civil Procedure 59, a new
trial may be granted where “the verdict is against the
weight of the evidence, the damages are excessive, or
if for other reasons the trial was not fair to the moving
party.” Mid-Am. Tablewares, Inc. v. Mogi Trading
Co., 100 F.3d 1353, 1367 (7th Cir. 1996) (citations and
internal quotations omitted). The trial court may
assess the credibility of the witnesses and the
comparative strength of the facts put forth at trial,
but should maintain certain deference to the jury’s
conclusions. Galvan v. Norberg, 678 F.3d 581, 588
(7th Cir. 2012) (citation omitted). TTI argues that
there are four, independently sufficient reasons it is
entitled to a new trial: (1) the Court erroneously
permitted the jury to determine the scope of the
claims; (2) prejudicial and erroneous evidentiary
rulings; (3) inconsistent verdicts given the Court’s
doctrine-of-equivalents instruction; and (4) the Court
should have granted TTI’s pre-trial motion to transfer
venue.

65a
A. Whether the Jury Determined the Scope of
the Claims
This marks the latest instantiation of TTI’s
argument that the ’275 patent claims require
transmitting two conditions/states occurring at the
same time. The heart of the matter is the meaning
behind this language, from claim 1: “a present
operational status condition defined, at least in part,
by at least two operating states from the plurality of
operating states.” (’275 Patent, 8:15-17, Dkt. 1-2.) TTI
points to the Court’s end-of-trial statement that
“there was a clear dispute between the experts on
what ‘defined’ means” (Tr. 1391:1-3) to argue that
there was thus a “fundamental dispute regarding the
scope of a claim term,” which must be resolved by the
Court and not the jury. O2 Micro Int’l Ltd. v. Beyond
Innovation Tech. Co., 521 F.3d 1351, 1362 (Fed. Cir.
2008). TTI argues the situation at bar mirrors the
Federal Circuit decisions in O2 Micro and NobelBiz,
Inc. v. Global Connect, L.L.C., 701 F. App’x 994, 998
(Fed. Cir. 2017), in which the Federal Circuit vacated
jury verdicts after the respective district courts
permitted the jury to determine the scope of the
asserted claims.
The Court does not see the parallel between those
cases and this one. In both of those cases, the parties
“presented a clear dispute regarding the proper scope
of the claims” during pre-trial claim construction.
NobelBiz, 701 F. App’x at 997; cf. O2 Micro, 521 F.3d
at 1359 (noting that parties argued over at-issue
construction during Markman hearing). In both
instances, the district court failed to provide any
construction for the contested element, choosing

66a
instead to allow the “plain and ordinary meaning” to
prevail. NobelBiz, 701 F. App’x at 997; O2 Micro, 521
F.3d at 1361 (reciting district court’s refusal to
“construe claim terms that have a well-understood
meaning”). The Federal Circuit took issue with both
district court determinations, opining that the
respective trial courts “failed to resolve the parties’
dispute[s] because the parties disputed not the
meaning of the words themselves, but the scope that
should be encompassed by th[e] claim language.” O2
Micro, 521 F.3d at 1361 (emphasis in original); cf.
NobelBiz, 701 F. App’x at 997.
But the pattern present in NobelBiz and O2 Micro
is not present here. TTI did not press for a
construction of “defined”; rather, the parties sought a
construction of the encapsulating claim language “a
controller having a plurality of potential operational
status conditions defined, at least in part, by a
plurality of operating states.” This the Court
provided, to wit: “a programmable platform (such as,
for example, a microprocessor, a microcontroller, a
programmable logic or gate array, or the like), that
can obtain, though self-awareness or through
externally developed information (e.g., from sensors),
two or more potential operational status conditions
defined, at least in part, by two or more operational
conditions being experienced by the controller
[programmable platform].” Chamberlain, 2017 WL
1304559, at *8 (brackets in original) (emphasis
added). While it is true that TTI initially suggested in
its opening Markman briefs that “defined by” should
be should be construed as “determined by” (Dkt. 151
at 10-11, 14; Dkt. 188 at 7-8), TTI apparently
abandoned that suggestion before the Court ruled. As

67a
Chamberlain observes, TTI ended up proposing a
construction that mimics the “defined by” language
TTI now claims spawned a grave legal error. (TTI’s
Supp. Claim Constr. at 11, Dkt. 286 (proposing
construction: “ … where each potential status
condition is defined by at least two actions that can be
performed by the controller at a particular time”).)
Indeed, the Court went so far as to note in its
Markman decision that “[n]either side proposes to
construe ‘defined,’” Chamberlain, 2017 WL 1304559,
at *10—an observation that TTI never took issue with
until after the close the trial.
Ultimately, TTI’s complaint is not directed to
some purported failure by the Court to define the
scope of these claims. Rather, TTI is simply
relitigating its already-defeated grievance that the
Court’s construction of claim 1 was different than
what TTI urged. As described, TTI urged the Court to
construe the recited status condition as defined by
actions performed by the controller. But the Court
declined to do so in light of the specification, observing
that the “‘operating states’ recited in dependent claim
5 [cannot] be read as uniformly or as broadly” as TTI
suggested. Id. After consulting the prosecution
history and the Federal Circuit’s claim construction
ruling in this case, the Court construed “operating
states” not as actions taken by the controller, but
rather as “operational conditions being experienced
by the controller.” Id. at *13. Further, the Court made
clear during this litigation that the “operational
conditions being experienced” are not limited, in the
Court’s construction, to only potential or only present
conditions. (See, e.g., June 21, 2017, Summary
Judgment Order at 4, Dkt. 397.)

68a
In its new trial Motion, TTI basically argues that
even though the parties did not propose or seek a
construction of “define,” the Court’s construction of
the encapsulating claim language did not provide
sufficient clarification as to the scope of claims. (Mem.
in Supp. of New Trial at 5, Dkt. 620 (“The Court
provided little guidance. … ”).) This is odd. If TTI
believed the Court’s constructions were not sufficient,
TTI should have requested further construction. Yet
this TTI never did, even as discovery progressed and
the parties’ experts began tendering their reports.
Now TTI maintains that these experts testified not to
the meaning of the construed language, but rather to
the claim scope, and that the Court then submitted
those competing interpretations of law to the jury for
deliberation.
There is problem with TTI’s argument. Put
simply, beyond TTI’s initial, and quickly abandoned,
suggestion that the Court construe “defined by” as
“determined by,” TTI never requested that the Court
construe this now-challenged phrase, nor suggested
that some allegedly lacking construction could open
the door to legal error. TTI did not object while
Chamberlain’s experts testified—TTI would now
presumably argue inappropriately—concerning the
meaning of “experienced by,” nor when the Court
instructed the jury and placed this question in their
hands. “[L]itigants waive their right to present new
claim construction disputes if they are raised for the
first time after trial.” Broadcom Corp. v. Qualcomm
Inc., 543 F.3d 683, 694 (Fed. Cir. 2008) (quoting
Conoco, Inc. v. Energy & Envtl. Int’l, L.C., 460 F.3d
1349, 1358-59 (Fed. Cir. 2006)). And that is what TTI
is attempting to do. TTI leans on the Court’s close-of-

69a
trial (but pre-jury-deliberation) comment that a “clear
dispute” existed between the experts on what
“defined” means, but in making that remark, the
Court was thinking only of the factual dispute
between experts concerning the meaning of the claim
term. If a misapprehension of this comment struck
TTI like a lightning bolt and for the first time caused
TTI to see some legal deficiency in the Court’s
constructions, TTI should have said so. Because TTI
did not, TTI has waived this claim construction
argument. TTI never requested that the district court
construe the complained-of term and did not offer a
construction; instead, TTI waited until “after the
presentation of all of the evidence to the jury [to] even
suggest that claim construction might be helpful to
determine the proper scope of the claimed invention.”
Eli Lilly & Company v. Aradigm Corporation, 376
F.3d 1352, 1360 (Fed. Cir. 2004) (finding defendant
had waived its right to request claim construction).
TTI’s request comes too late. It has waived the
argument.
B. Evidentiary Rulings.
Before trial, TTI moved in limine to exclude that
the Patent Trial and Appeal Board (“PTAB”) declined
to institute inter partes reviews (“IPRs”) of the
asserted patents. The Court denied that motion, and
TTI now argues that permitting this evidence to go to
the jury created prejudice and juror confusion that
necessitates a new trial. The PTAB relied on different
claim constructions than did this Court, and TTI
argues that allowing this evidence risks that the jury
could have improperly substituted the PTAB
decisions—or Chamberlain’s characterization of those

70a
decisions—for the jury’s own findings. The Court
disagrees. In Microsoft Corp. v. i4i Ltd. Partnership,
564 U.S. 91, 111 (2011), the Supreme Court explained
that improper effects on juries of introducing PTO
determinations can be mitigated with a limiting
instruction: “When warranted, the jury may be
instructed to consider that it has heard evidence that
the PTO had no opportunity to evaluate before
granting the patent. When it is disputed whether the
evidence presented to the jury differs from that
evaluated by the PTO, the jury may be instructed to
consider that question.” TTI requested, and the Court
gave, such an instruction in this case: “The ’275 and
’966 patents were the subject of proceedings at the
Patent Office called inter partes reviews (“IPR”). The
legal standards applied by the Patent Office differ
from the legal standards that you must apply. For
example, Patent Office proceedings may have
involved different claim constructions than this
Court’s claim constructions.” (Jury Instruction No. 33,
Dkt. 606.) Allowing the PTAB history was not an
evidentiary error warranting a new trial. Cf.
Universal Elecs., Inc. v. Universal Remote Control,
Inc., No. CV 12-00329, 2014 WL 8096334, at *7 (C.D.
Cal. Apr. 21, 2014) (denying motion in limine seeking
to exclude evidence of PTO’s rejection of IPR petition).
TTI also argues that the Court erred by applying
Local Patent Rule 3.4’s good cause standard in
barring the tardily-disclosed Kikuya reference and
the Weik device. But the Federal Circuit has
explained that the use of local patent rules falls
within a district court’s “broad power to control its
docket and enforce its order.” Keranos, LLC v. Silicon
Storage Tech., Inc., 797 F.3d 1025, 1035 (Fed. Cir.

71a
2015) (citations omitted). TTI failed to show good
cause for its late amendments to its invalidity
contentions, and this Court permissibly barred the
prior art. See, United States v. Calabrese, 572 F.3d
362, 368 (7th Cir. 2009) (district courts have “broad
latitude to control the admission of evidence”). TTI’s
assertion that this excluded prior art would have been
relevant to the case does not change the fact of its
proscriptively tardy disclosure.
C. Doctrine of Equivalents Grounds
TTI argues a new trial is warranted if the Court
agrees, as TTI sets out in its JMOL Motion, that the
theory of equivalents should not have gone to the jury.
As described above, however, the Court does not
agree, so this first argument fails.
TTI next argues that because literal infringement
and doctrine-of-equivalents infringement were
mutually exclusive options for the jury, the jury’s
finding of liability on both theories suggests a newtrial-worthy inconsistency. True, infringement under
the doctrine of equivalents is an equitable doctrine
intended to apply ‘in situations where there is no
literal infringement[,] but liability is nevertheless
appropriate.” Hormone Research Found., Inc. v.
Genentech, Inc., 904 F.2d 1558, 1564 (Fed. Cir. 1990)
(citation omitted). Still, the differences between these
two theories of liability are not “fatally inconsistent,”
Adv. Display Sys., Inc. v. Kent State Univ., No. 3-96
CV 1480, 2002 WL 1489555, at *5 (N.D. Tex. July 10,
2002) (collecting cases demonstrating the Federal
Circuit’s tacit approval of “the common practice of
submitting patent cases under both theories”), and

72a
the jury’s twin verdicts do not mandate a new trial,
see, id. (refusing to disturb the verdict “merely
because the jury found both literal infringement and
infringement under the doctrine of equivalents,” and
instead reforming the verdict and entering judgment
only on the literal infringement finding). Beyond this,
TTI waived the objection it raises now by failing to
object before the Court discharged the jury. See,
Strauss v. Stratojac Corp., 810 F.2d 679, 683 (7th Cir.
1987) (holding that counsel’s failure to object to
alleged inconsistencies in special interrogatories
before the jury had been discharged constituted
waiver). The Court will not on this basis order a new
trial.
D. The Court’s Refusal to Transfer Venue
Once more, TTI raises a venue argument
predicated upon the Supreme Court’s recent decision
in TC Heartland LLC v. Kraft Foods Group Brands
LLC, 137 S. Ct. 1514 (2017). (Cf. TTI’s Mot. Trans.
Venue, Dkt. 392.) But TTI’s argument is not identical
to the one it advanced in its pretrial motion to
transfer venue; this new version has a twist. At issue
here is the patent venue statute, 28 U.S.C. § 1400(b),
and the recently evolved case law contrasting its
scope with that of the general venue statute, 28
U.S.C. § 1391(c). In 1988 and then 2011, Congress
amended § 1391 to make it broader, creating venue
not only for corporate defendants incorporated within
a court’s forum, but also for corporate defendants
subject to that court’s personal jurisdiction. See, In re
Micro Tech., Inc., 875 F.3d 1091, 1098-99 (Fed. Cir.
2017).
Courts
then
began
applying
the
Congressionally-broadened scope of § 1391 to patent

73a
cases governed by § 1400, even though Congress had
not similarly amended the patent-specific statute.
See, e.g., VE Holding Corp. v. Johnson Gas Appliance
Co., 917 F.2d 1574, 1582 (Fed. Cir. 1990) (holding that
the expansion of § 1391 applied to § 1400 as well),
abrogated by TC Heartland, 137 S. Ct. 1514. With TC
Heartland, the Supreme Court put a stop to this. The
Court held that under the patent venue statute, a
corporation only “resides” in its state of
incorporation—and nowhere else. TC Heartland, 137
S. Ct. at 1517.
This ruling raised eyebrows for parties like TTI,
who by the time of the TC Heartland decision were
deeply enmeshed in patent litigation in a forum where
none of the domestic, corporate defendants were
incorporated. A month after the TC Heartland
opinion came out and two months before this trial was
set to begin, TTI moved this Court to transfer the case
to South Carolina. The Court denied that motion,
finding that because TC Heartland did not represent
a change in the law, TTI had waived objections to
venue by (1) failing to contest venue in its answer and
(2) twice admitting that venue was proper here.
Chamberlain, 2017 WL 3205772, at *2 (citing Cobalt
Boats, LLC v. Sea Ray Boats, Inc., 254 F. Supp. 3d
836, 840 (E.D. Va. 2017)). The Court also remarked
upon the extensive judicial resources already
expended on this matter that would need to be spent
once more if the case were transferred. Id.
That might have been the end of it. But since the
Court’s ruling, the Federal Circuit published In re
Micron Technology, Inc., 875 F.3d 1091, 1093 (Fed.
Cir. 2017) in which the court of appeals made clear

74a
that TC Heartland changed the controlling law and
rendered
the
waiver
of
venue
objections
inapplicable—at least in certain instances. Now, TTI
argues its venue objections cannot be stripped away
by waiver given those objections were not even
available under then-controlling authority. But TTI
ignores half of Micron’s holding, and that other half
undermines TTI’s position. Simply put, Micron drew
a line between two classes of waiver: waiver under
Federal Rule of Civil Procedure 12(g)(2) and (h)(1)(A),
and waiver under the “less bright-line, more
discretionary framework” extant in a trial court’s
“inherent powers.” Id. at 1094, 1100 (citation
omitted). Micron thus held that district courts have
authority to find forfeiture of a venue objection
separate and apart from a Rule 12 shortcoming. Id. at
1101; accord Neirbo Co. v. Bethlehem Shipbuilding
Corp., 308 U.S. 165, 168 (1939) (“Being a privilege,
[venue] may be lost. It may be lost by failure to assert
it seasonably, by formal submission in a cause, or by
submission through conduct.”).
Finding waiver is appropriate here. By the time
the Supreme Court announced TC Heartland, the
Chamberlain/TTI trial date was only three months
away. Still, TTI waited another month before filing its
TC Heartland motion to transfer. (Dkt. 392.) This
unnecessary delay is problematic for two reasons.
First, with the trial date fast approaching, the parties
continued to burn resources in discovery and pre-trial
motion practice, and the Court expended its own
energies mediating these disputes. The parties
exchanged discovery, submitted expert reports,
answered one another’s claims, and attended two incourt hearings. Second, TTI’s counsel chose not to

75a
delay in raising a TC Heartland argument in another
matter. During the month-long interregnum in the
instant litigation, TTI’s counsel moved—a mere eight
days after the Supreme Court published TC
Heartland—to transfer venue in another case
pending in the Eastern District of Virginia. See,
Cobalt Boats, 254 F. Supp. 3d at 839-40. The Virginia
district court denied that motion, id., and counsel
sought a writ of mandamus from the Federal Circuit,
which was denied, In re Sea Ray Boats, Inc., 695 F.
App’x 543 (Fed. Cir. 2017). Only then did counsel file
the TC Heartland motion to transfer venue in the
instant case. Chamberlain suggests this behavior has
the hallmarks of a “tactical wait-and-see” approach
which enabled TTI’s counsel to reshape their TC
Heartland argument as necessary in the instant case
depending on the relative success of their first
attempt in Virginia. The Federal Circuit took care to
suggest the potentially problematic nature of such
gamesmanship: “We also note a scenario that
presents at least an obvious starting point for a claim
of forfeiture, whether based on timeliness or consent
or distinct grounds: a defendant’s tactical wait-andsee bypassing of an opportunity to declare a desire for
a different forum, where the course of proceedings
might well have been altered by such a declaration.”
Micron, 875 F.3d at 1102. And finally, though the
Federal Circuit chose not to provide a specific
framework for when courts may find waiver by means
other than noncompliance with Rule 12, the court of
appeals approvingly recited its past denials of
mandamus “in several cases involving venue
objections based on TC Heartland that were
presented close to trial.” Id. at 1102. One of the

76a
recounted denials was the one in this case. Id. at 1102
n.4 (citing In re Techtronic Indus. N. Am., Inc., No. 17125, 2017 WL 4685333, at *1 (Fed. Cir. July 25, 2017)
(denying TTI writ of mandamus)). The framework for
finding such waivers is not yet defined, but two things
are clear: One, this Court has the inherent power to
find TTI waived its venue objection, and two, because,
with only two months to go before trial, TTI engaged
in the wait-and-see tactics highlighted by the Federal
Circuit, the Court does not abuse its discretion by
finding waiver here. TTI’s Motion for a new trial is
denied to the extent it relies upon TC Heartland and
TTI’s efforts to transfer venue.
III. Chamberlain’s Motion for a Permanent
Injunction
To obtain a permanent injunction, a plaintiff
must demonstrate: (1) that it has suffered an
irreparable injury; (2) that remedies available at law,
such as monetary damages, are inadequate to
compensate for that injury; (3) that, considering the
balance of hardships between the plaintiff and
defendant, a remedy in equity is warranted; and (4)
that the public interest would not be disserved by a
permanent injunction. eBay Inc. v. MercExchange,
L.L.C., 547 U.S. 388, 391 (2006) (citations omitted).
Under Federal Rule of Civil Procedure 65(d), an
injunction must prohibit “only those acts sought to be
restrained,” namely, “infringement of the patent by
the devices adjudged to infringe and infringement by
devices no more than colorably different therefrom.”
Black & Decker Inc. v. Robert Bosch Tool Corp., No.
04 C 7955, 2006 WL 3446144, at *2 (N.D. Ill. Nov. 29,

77a
2006) (quoting Int’l Rectifier Corp. v. IXYS Corp., 383
F.3d 1312, 1317 (Fed. Cir. 2004)).
A. Irreparable Injury and Remedies Available
at Law
Much of TTI’s rebuttal to Chamberlain’s soughtafter injunctive relief turns upon TTI’s promise that
it has abandoned the production of infringing GDOs
and has pulled all remaining units from Home Depot’s
shelves. Although TTI intends to sell off its remaining
stock of infringing units, TTI claims it will soon sell
only non-infringing GDOs. But TTI’s “cessation of the
production and sales of the [GDOs] is not—in and of
itself—a sufficient reason to deny a permanent
injunction. Instead, there must also be some
persuasive evidence that further infringement will
not take place.” Black & Decker, 2006 WL 3446144, at
*4 (citing W.L. Gore & Assocs. v. Garlock, Inc., 842
F.2d 1275, 1282 (Fed. Cir. 1988), abrogated on other
grounds as recognized in Zoltek Corp. v. United
States, 672 F.3d 1309, 1319 (Fed. Cir. 2012)). That is
not the case here, where TTI has both admitted its
intention to continue selling infringing GDOs (at least
in the short-term) and nowhere suggests it is bound
to its promise to cease quickly that sales activity. Cf.
id. (granting permanent injunction where plaintiff set
forth evidence that future infringement “might” take
place).
So long as TTI continues to sell infringing GDOs,
Chamberlain will suffer injury without an available,
adequate remedy. Chamberlain has and will continue
to suffer harm to its market share, especially given
the relatively inelastic nature of GDOs. The evidence

78a
bears this out: From April 2016-April 2017, TTI sold
more than 62,000 GDOs, about a quarter of
Chamberlain’s total sales over a two year period,
April 2015-April 2017. (Hanson Tr. 438:5-439:2.) TTI
was not a GDO-market participant prior to its ’275infringing sales. “Direct competition in the same
market is certainly one factor suggesting strongly the
potential for irreparable harm without enforcement of
the right to exclude.” Presidio Components, Inc. v.
Am. Tech. Ceramics Corp., 702 F.3d 1351, 1363 (Fed.
Cir. 2012) (citing Broadcom Corp. v. Qualcomm Inc.,
543 F.3d 683, 703 (Fed. Cir. 2008)); cf. Douglas
Dynamics, LLC v. Buyers Prod. Co., 717 F.3d 1336,
1338, 1345 (Fed. Cir. 2013) (reversing district court’s
denial of permanent injunction where infringer’s
market share grew from 0% to 5% over three years of
infringement).
Further, continuing infringing sales may cause
Chamberlain to suffer “ecosystem” effects, whereby
Ryobi GDO purchasers will continue to buy Ryobi
products and recommend them to others. Apple Inc. v.
Samsung Elecs. Co., 809 F.3d 633, 641 (Fed. Cir.
2015); accord Hansen Tr. 462:15-17 (describing
purchasers of one Chamberlain product more likely to
purchase further Chamberlain products and
recommend same). These derivative sales are
significant here, where the participating GDO sellers
seek to profit from sales of GDO accessories. (See, A.
Ely Dep. Designations 154:4-154:12, Dkt. 611-2
(describing Ryobi’s intention that customers will buy
Ryobi-branded accessories that “go with” their Ryobi
GDOs); TTI Internal Email at 2, Dkt. 623-6 (“You
must make money in the accessories!!”).) On this
record, “mere damages will not compensate for a

79a
competitor’s increasing share of the market.” Douglas
Dynamics, 717 F.3d at 1345. Under such
circumstances, a patent owner’s right to exclude
“cannot be compensated through monetary damages,”
especially “because it is impossible to determine the
portions of the market the patent owner would have
secured but for the infringer or how much damage
was done to the patent owner’s brand recognition or
good will due to the infringement.” z4 Tech., Inc. v.
Microsoft Corp., 434 F. Supp. 2d 437, 441 (E.D. Tex.
2006).
Finally, Chamberlain’s unwillingness to license
the patent also weighs in favor of finding irreparable
injury. See, Presidio Components, 702 F.3d at 1363;
cf. Acumed LLC v. Stryker Corp., 551 F.3d 1323, 1328
(Fed. Cir. 2008) (“[That] a patentee has previously
chosen to license the patent may indicate that a
reasonable royalty does compensate for an
infringement”); Hansen Tr. 459:13-460:24 (explaining
that Chamberlain has not licensed the asserted
patents); Tate Tr. 1265:2-1266:1 (same).
Beyond showing irreparable harm and the
absence of an adequate remedy, Chamberlain must
also show that the harm bears a causal nexus to the
infringing activity. Apple Inc. v. Samsung Elecs. Co.,
809 F.3d 633, 640 (Fed. Cir. 2015). This showing
requires only that the patented features “were related
to infringement and were important to customers.” Id.
at 644. As the Court previously observed in its
preliminary injunction order, both companies
“target[] customers who want ‘connected’ GDOs, i.e.,
those connected by the controller to smart phones
through wireless transmissions.” (Dkt. 107 at 15.) At

80a
trial, Chamberlain produced evidence demonstrating
that the status monitoring and data transmission
disclosed by the ’275 patent are important to
consumers. (Hansen Tr. 443:15-18 (“Q: Does TTI
believe that the capability of the Ryobi garage door
opener to transmit status updates is an important
feature for driving sales? A: Yes.”); A. Ely Dep.
Designations 232:3-10, Dkt. 611-2 (agreeing that
“[t]he ability or the function of a Ryobi garage door
opener that allows a customer to monitor the status
of the garage door, that’s something that would
incentivize customers to buy the Ryobi product.”).)
This suffices to show the required nexus. Genband US
LLC v. Metaswitch Networks, Corp., 861 F.3d 1378,
1382 (Fed. Cir. 2017) (stating that patentee must
show that the patent features are “a driver” for
demand as opposed to “the driver” (emphasis in
original)).
B. Balance of Hardships
The balance weighs in favor of granting the
injunction. TTI is relatively new to the GDO market,
and TTI’s damages expert testified that TTI has not
earned any gross or operating profit from the sale of
the Ryobi GDO as of July 2017. (Corrected Supp.
Expert Rpt. at 49, Dkt. 468-2.) Aside from their GDO
sales, TTI maintains a multibillion dollar business. In
contrast, GDO sales make up the core of
Chamberlain’s business. (Sept. 15, 2016, Mem. Op.
and Order at 17, Dkt. 107.) Beyond this, TTI is “not
entitled to continue infringing simply because it
successfully exploited its infringement.” i4i Ltd.
P’ship v. Microsoft Corp., 598 F.3d 831, 863 (Fed. Cir.

81a
2010), aff’d, 564 U.S. 91 (2011) (citations omitted).
The balance of hardships favors injunction.
C. Public Interest
“In general, public policy favors the enforcement
of patent rights.” Black & Decker, 2006 WL 3446144,
at *5 (citing Abbott Labs. v. Andrx Pharms., Inc., 452
F.3d 1331, 1348 (Fed. Cir. 2006); PPG Indus., Inc. v.
Guardian Indus. Corp., 75 F.3d 1558, 1567 (Fed. Cir.
1996)). The jury in this case found that TTI willfully
infringed the ’275 patent. Hence, it will serve the
public interest to protect Chamberlain’s property
rights against further infringement. See, Apple Inc. v.
Samsung Elecs. Co., 809 F.3d 633, 647 (Fed. Cir.
2015).
D. Breadth of the Injunction
The Court finds a permanent injunction is
appropriate, and now permanently enjoins TTI from
infringing or inducing infringement of claims 1, 5, or
15 of the ’275 patent by making, using, selling, or
offering to sell in the United States, or importing into
the United States the Ryobi GD200, GD200A, and
any device no more than colorably different
therefrom, until the expiration of the ’275 patent,
including any patent term adjustments and
extensions. Beyond this, Chamberlain also requests a
Court-approval condition, under which TTI cannot
introduce any WiFi-capable GDO without prior
permission from the Court. TTI responds that this
proposed condition is overbroad and impermissibly
deters legitimate design-around efforts. See, TiVo,
Inc. v. EchoStar Corp., 646 F.3d 869, 883 (Fed. Cir.

82a
2011) (“[L]egitimate design-around efforts should
always be encouraged as a path to spur further
innovation.”). TTI instead proposes “to voluntarily
provide [Chamberlain’s] outside counsel with seven
days’ notice of its intended launch date of any new
GDO at The Home Depot,” and to meet and confer
regarding the same. Finally, Chamberlain replies
that if the Court is inclined to impose such a notice
condition as TTI suggests, the notice period should be
two months, not seven days. To any extent, the Court
will not impose any of these additional conditions. TTI
is enjoined from further infringing the ’275 patent as
set forth above; if TTI disregards that mandate, TTI
will likely owe Chamberlain still further damages and
possibly find itself sanctioned by the Court. This is
specific enough under Federal Rule of Civil Procedure
65 and should serve as an appropriate disincentive for
further infringing activity. No more is needed.
IV. Chamberlain’s Motion for Enhanced
Damages
When there is a finding of infringement, the Court
may increase the damages up to three times the
amount found or assessed. 35 U.S.C. § 284. “The
subjective willfulness of a patent infringer,
intentional or knowing, may warrant enhanced
damages, without regard to whether his infringement
was objectively reckless.” Halo Elecs., Inc. v. Pulse
Elecs., Inc., 136 S. Ct. 1923, 1933. Behavior deserving
of enhanced damages is “egregious,” or “willful,
wanton, malicious, bad-faith, deliberate, consciously
wrongful, flagrant, or—indeed—characteristic of a
pirate.” Id. at 1932. To prevail on a motion seeking
enhanced damages, a patent-owner must show

83a
enhancement is warranted by a preponderance of the
evidence. Id. at 1934.
Though not a required part of the analysis, the
nine so-called Read factors provide useful guideposts
for the Court’s consideration. Presidio Components,
Inc. v. Am. Tech. Ceramics Corp., 875 F.3d 1369, 1382
(Fed. Cir. 2017) (citing Read Corp. v. Portec, Inc., 970
F.2d 816 (Fed Cir. 1992)); accord Styrker Corp. v.
Zimmer, Inc., No. 10 cv 1223, 2017 WL 4286412, at *3
(W.D. Mich. July 12, 2017) (applying Read factors).
Those factors are:
(1) whether the infringer deliberately copied
the ideas or design of another;
(2) whether the infringer, when he knew of
the other’s patent protection,
investigated the patent and formed a
good-faith belief that it was invalid or
that it was not infringed;
(3) the infringer’s behavior as a party to the
litigation;
(4) the infringer’s size and financial
condition;
(5) the closeness of the case;
(6) the duration of the misconduct;
(7) the remedial action by the infringer;
(8) the infringer’s motivation for harm; and
(9) whether the infringer attempted to
conceal its misconduct.
See, Read Corp., 970 F.2d at 827. The Court need not
find that every Read factor favors enhancement to
order it. See, e.g., Arctic Cat Inc. v. Bombardier
Recreational Prod., Inc., 198 F. Supp. 3d 1343, 1354

84a
(S.D. Fla. 2016) (awarding enhanced damages even
where not all factors favored enhancement), aff’d, 876
F.3d 1350 (Fed. Cir. 2017).
Here, Chamberlain says TTI acted egregiously.
TTI, of course, disputes the characterization, claiming
instead that this litigation arose from a simple
business dispute and that its attorneys permissibly
litigated with zeal. Before the Court takes up the
Read factors, it notes the relevant background: First,
during the time that TTI developed the Ryobi GDO
200, TTI was acutely aware that the enterprise could
trespass on IP rights if TTI were not careful. TTI’s
primary customer, Home Depot, acknowledged as
much (Dkt. 642-5 at 2 (Trial Ex. No. PTX-188)
(describing IP research as “the main area of concern”
with the Ryobi GDO development)), and TTI’s
internal documents described possible IP problems as
high risk, meaning “[t]he project is going to be
adversely impacted by th[e] issue if it is not
addressed. Multiple risk reduction plans are
necessary.” (Dkt. 642-7 at 35, 37 (Trial Ex. No. PTX67).)
But TTI’s awareness of possible IP issues was not
limited to the abstract. Several events put TTI on
notice of both the ’275 and the ’966 patents
specifically. As to the former: TTI engineers acquired
Chamberlain GDOs which practice the ’275 patent;
these engineers disassembled the devices and used
the internal parts to make a demo of the Ryobi device
that TTI presented to Home Depot. (Huggins Tr.
601:17-603:2.) At the time the TTI engineers took
apart Chamberlain’s GDO, it was marked, in a place
plainly visible upon deconstructing the device, as

85a
practicing the ’275 patent. (Huggins Tr. 605:9606:12.) Despite admitting both the visibility of this
marking and the fact that TTI took apart the
Chamberlain unit (see, id.), TTI’s employees testified
that they never saw the ’275 patent marking. (TTI’s
Resp. to Mot. for Enhanced Damages at 14, Dkt. 645
(collecting citations to trial transcript).) This is not
the only example of TTI being put on notice of the ’275
patent, however. During the Ryobi GDO development
phase, TTI hired a consultant who had previously
worked at Overhead Door, another market
competitor. This consultant had been aware of the
’275 patent while at Overhead Door and advised TTI
that it would need to be careful of the intellectual
property rights around “wireless devices and
[GDOs].” (Carlson Dep. Designations 37:13-15, 37:1738:8, 56:4-7, 70:7-11, Dkt. 610-1.) TTI was also on
notice during this time—and indeed, long before—of
the ’966 patent. TTI filed a PCT application back in
2009, and international search reports indicated that
it faced novelty and obviousness problems in light of
the ’966 patent. (Dkt. 623-9 at 27 (Trial Ex. No. PTX630).) TTI learned of the patent again in February
2015 during GDO development. (TTI’s Fifth Supp.
Answers to Chamberlain’s First Set of Interrogatories
at 9, Dkt. 624-9.)
A. Read Factors
Deliberate Copying. Here, “the evidence show[s]
that [TTI] was aware of [Chamberlain’s GDO] and
intended to develop a product with similar
capabilities.” Polara Eng’g, Inc. v. Campbell Co., 237
F. Supp. 3d 956, 992 (C.D. Cal. 2017) (finding
circumstantial evidence of deliberate copying

86a
“nonetheless compelling”). Further, TTI’s purported
attempts to design around the ’275 patent only came
six months after Chamberlain filed this suit (see,
Notice of Redesign, Dkt. 203), and even then the
Court judged that redesign to be not colorably
different, Chamberlain, 2017 WL 368027, at *3-4.
This conduct suggests faith worse than the
defendant’s in Westvaco Corp. v. International Paper
Co., 991 F.2d 735 (Fed. Cir. 1993), where the
defendant took pains to design around an existing
patent in the first instance. Id. at 738-40, 746
(reversing damages enhancement). This factor weighs
in favor of enhanced damages.
Good
Faith
Belief
of
Invalidity
of
Noninfringement Predicated upon Investigation of
Patent. As set forth above, TTI not only knew that
development in the wireless/WiFi-capable GDO space
could raise IP problems, TTI also knew of ’275 and the
’966 patents specifically. And yet, despite being aware
of the risk of infringement, there is no suggestion that
TTI did anything to avoid colliding with it head-on.
Cf. Apple Inc. v. Samsung Elecs. Co., 258 F. Supp. 3d
1013, 1032 (N.D. Cal. 2017) (“The absence of evidence
of an adequate investigation and of Samsung’s
reliance on its defenses weighs in favor of enhanced
damages.”). This factor weighs in favor of enhanced
damages.
TTI’s Litigation Behavior. Both parties make
much of this factor and spend many pages contesting
whether and when TTI misbehaved in litigation. The
Court will not nitpick each of these contests now,
though it will note one moment in which TTI behaved
less than admirably. Chamberlain moved for a

87a
preliminary injunction and the Court granted it on
September 15, 2016. (Mem. Op. and Order, Dkt. 104.)
But the Court did not actually enter that injunction
until five days later. (Order, Dkt. 111.) In that brief
interim, TTI sold off approximately 6,000 of the
original GD200s to Home Depot. (See, Ex. J to
Enhanced Damages Mot., Dkt. 624-11.) TTI thus
unloaded (since-determined-to-be) infringing stock
despite the Court’s announcement that it intended to
halt all such sales imminently. That the Federal
Circuit later vacated the preliminary injunction is no
defense; possible vacatur on appeal is no excuse for
disregarding a court order. This factor also weighs in
favor of enhanced damages.
TTI’s Size and Financial Condition. TTI is a
multibillion dollar company with the means to absorb
$11.4 million in treble damages. See, Metabolite
Labs., Inc. v. Lab. Corp. of Am. Holdings, 370 F.3d
1354, 1371 (Fed. Cir. 2004) (affirming award of
enhanced damages based in part on fact that
defendant “is a large company with extensive
financial means”). This factor weighs in favor of—or
at least does not weigh against—enhanced damages.
Closeness of the Case. This case was not close. TTI
lost on every issue at trial after less than two hours of
jury deliberation. See, SRI Int’l, Inc. v. Cisco Sys.,
Inc., 254 F. Supp. 3d 680, 723 (D. Del. 2017)
(enhancing damages in part because defendants “lost
on all issues during summary judgment and trial”); cf.
Engineered Prod. Co. v. Donaldson Co., 147 F. App’x
979, 992 (Fed. Cir. 2005) (affirming award of treble
damages where “this was not a close case of
infringement, as evidenced by the strong showing of

88a
willful infringement”). The fact that some of TTI’s
positions had merit does not turn the tables. See,
Styrker Corp., 2017 WL 4286412, at *3 (“[T]he
objective reasonableness the Federal Circuit found for
a handful of [defendant’s] litigation positions in no
way detracts from the lopsided victory [plaintiff]
garnered on the core issues[.]”). This factor weighs in
favor of enhanced damages.
Duration of Misconduct. TTI’s infringing behavior
has spanned the whole of TTI’s participation in the
GDO marketplace to date. (TTI’s Resp. to Enhanced
Damages Mot. at 13 n.10, Dkt. 645 (admitting that
TTI continues to sell infringing Ryobi GDOs to date,
and adding that TTI intends to account for said sales
and compensate Chamberlain accordingly).) This
factor weighs in favor of enhanced damages.
TTI’s Remedial Actions. “Courts have concluded
that continuing to sell the infringing products after
notice of infringement and during the course of
litigation supports enhancement.” Polara, 237 F.
Supp. 3d at 993 (citation omitted). Here, TTI has
continued to sell its GDOs, although directly, and not
through Home Depot, since the return of the jury
verdict. (See, M. Preus Decl. ¶ 9, Dkt. 645-1.) This
adds to TTI’s infringement instead of reducing it. As
such, this factor weighs in favor of enhanced
damages.
TTI’s Motivation for Harm. The evidence suggests
that TTI recognized the peril of infringement and yet
moved forward with its GD200s anyway. TTI’s actions
during the development and release of both the
GD200 and the GD200A suggest that TTI wanted to

89a
enter the market quickly and, if possible, displace
Chamberlain’s hold on it. This preference for risk of
infringement over the more labor-intensive creation
of a non-infringing design weighs in favor of
enhancing damages. Funai Elec. Co., Ltd. v. Daewoo
Elecs. Corp., 593 F. Supp. 2d 1088, 1116-17 (N.D. Cal.
2009) (agreeing that “where, as here, the infringer
engages in infringing conduct to gain an edge over the
patentee in a competitive market, this factor favors
an award of enhanced damages.”)
Attempts by TTI to Conceal Its Misconduct. First,
as described above, TTI evaded the preliminary
injunction by unloading its GDOs to Home Depot
after the Court’s opinion foretelling the injunction
against the same. Second, TTI contacted Home Depot
in October 2016, a month after the Court entered the
preliminary injunction but three months before the
Federal Circuit vacated it, offering to sell Ryobi GDOs
despite the Court’s command not to do so. (Cameron
Dep. Designations 209:21-210:25, Dkt. 625-10.) This
factor weighs in favor of enhanced damages. See, 35
U.S.C. § 271(a) (offering to sell a patented invention
constitutes infringement); R-BOC Representatives,
Inc. v. Minemyer, 233 F. Supp. 3d 647, 689 (N.D. Ill.
2017) (ordering treble damages where defendants not
only failed to follow the injunction, but “silently
avoided it”).
In sum, considering the jury’s verdict and the
Read factors, the Court finds that Chamberlain has
shown by a preponderance of the evidence that
enhanced damages are appropriate here. Halo Elecs.,
136 S. Ct. at 1934. The Court accordingly orders
treble damages.

90a
V. Chamberlain’s Motion for Prejudgment
Interest and Supplemental Damages
A. Prejudgment Interest
Given Congress’ overriding purpose of affording
patent owners complete compensation, prejudgment
interest should ordinarily be awarded in patent cases.
Gen. Motors Corp. v. Devex Corp., 461 U.S. 648, 655
(1983) (citing 35 U.S.C. § 284). “Generally,
prejudgment interest should be awarded from the
date of infringement to the date of judgment.” Nickson
Indus., Inc. v. Rol Mfg. Co., 847 F.2d 795, 800 (Fed.
Cir. 1988) (citations omitted). Both the rate and
whether the interest should be compounded “are
matters left largely to the discretion of the district
court.” Bio-Rad Labs., Inc. v. Nicolet Instrument
Corp., 807 F.2d 964, 969 (Fed. Cir. 1986) (citations
omitted).
The parties dispute which rate the Court should
apply. Chamberlain argues for the prime rate
(between 3.5 and 4.25% in this case), and TTI argues
for the treasury bill rate (approximately 0.62%). “The
prime rate of interest is the benchmark rate for the
banks’ most credit-worthy customers, but even bluechip debtors are more likely to default than is the
United States government, so the prime rate exceeds
the T-Bill rate … [b]ecause the prime rate includes
some compensation for the risk of non-payment….”
Koopmans v. Farm Credit Servs. of Mid-America,
ACA, 102 F.3d 874, 875 (7th Cir. 1996) (citation
omitted). As Judge Amy St. Eve explained in Black &
Decker Inc. v. Robert Bosch Tool Corp., No. 04 C 7955,
2006 WL 3359349 (N.D. Ill. Nov. 20, 2006), vacated on

91a
other grounds, 260 F. App’x 284 (Fed. Cir. 2008), “if
the Court were to use the prime rate, [the plaintiff]
would be compensated for the risk of nonrepayment—a risk that does not exist under the
circumstances. Here, the T-Bill rate is more
appropriate because it will adequately compensate
[the Plaintiff] for its ‘foregone use of the money
between the time of infringement and the date of the
judgment’ without additional compensation.” Id. at
*11 (citing Laitram Corp. v. NEC Corp., 115 F.3d 947,
955 (Fed. Cir. 1997) (affirming district court’s award
of interest at T-Bill rate to “adequately compensate
plaintiff for the lost use of its royalties”)). Further,
“[i]n determining the appropriate rate, courts have
considered whether, during the period of
infringement, the plaintiff ‘borrowed money at a
higher rate, what that rate was, or [whether] there
was a causal connection between any borrowing and
the loss of the use of the money awarded as a result of
[the defendant’s] infringement.’” Apple, Inc. v.
Samsung Elecs. Co., 67 F. Supp. 3d 1100, 1121-22
(N.D. Cal. 2014), aff’d, 816 F.3d 788 (Fed. Cir. 2016),
vacated in part and aff’d in part on reh’g en banc, 839
F.3d 1034 (Fed. Cir.); accord Laitram, 115 F.3d at 955
(upholding district court’s decision to use the treasury
bill rate in case where district court found no evidence
of “a causal connection between any borrowing and
the loss of the use of the money awarded as a result of
the infringement.”). Chamberlain made no such
showing here. The Court agrees the T-Bill rate is
appropriate.
Next, courts “have recognized that compounding
is necessary to fully compensate the patentee.”
Sealant Sys. Int’l, Inc. v. TEK Global S.R.L., No. 11

92a
CV 00774, 2014 WL 1008183, at *6 (N.D. Cal. Mar. 7,
2014) (citation omitted), aff’d in part, vacated in part,
rev’d in part, 616 F. App’x 987 (Fed. Cir. 2015).
“Because a patentee’s damages include the foregone
use of money, compounding is needed to account for
the time value of money.” Id. (citation omitted). Thus,
“courts have approved annual compounding and even
daily compounding.” Id. (citation omitted). TTI has
not articulated any objection to compounding. The
Court believes that monthly compounding, as
Chamberlain requests, is appropriate here.
B. Supplemental Damages
Chamberlain asks the Court to amend the
judgment pursuant to Federal Rule of Civil Procedure
59(e) to account for new information not available at
trial concerning TTI’s sales of infringing products
between May 1, 2017 and September 5, 2017. Courts
may account for such pre-verdict sales not presented
at trial. See, e.g., Finjan, Inc. v. Secure Computing
Corp., 626 F.3d 1197, 1212 (Fed. Cir. 2010) (affirming
supplemental damages for infringing sales never
considered by the jury); accord 35 U.S.C. § 284
(“When damages are not found by a jury, the court
shall assess them”). These supplemental damages
derive from the same three sources as the original
damages determined by the jury: (1) lost profits for
sales of infringing GDOs; (2) future accessories for
those infringing GDOs; (3) royalties for sales of
infringing GDOs not accounted for in Chamberlain’s
lost profits, as determined by Chamberlain’s market
share.

93a
TTI contends that none of these supplemental
damages is appropriate because TTI has begun and
intends to complete buying back from Home Depot all
remaining stock of infringing Ryobi GDOs. But TTI
cites no legal authority explaining why its
repurchasing plan erases the harm done to
Chamberlain or annuls damages TTI would otherwise
owe. As Chamberlain correctly notes, Chamberlain
suffered lost profits at the time TTI made the initial,
infringing sales to Home Depot; a later-implemented
buy-back plan does not undo that harm. Beyond this,
TTI states that its intent in repurchasing the
infringing GDOs is simply to sell those GDOs directly
to consumers, rather than use Home Depot as a
middle man. Chamberlain is entitled to supplemental
damages for both lost profits and royalties for TTI’s
infringing sales occurring from May 1, 2017 to
September 5, 2017.
However, the calculus might not be so simple for
the supplemental damages for lost future sales of
GDO accessories. By using an “accessory attach rate”
of 0.75, Chamberlain’s damages expert concluded that
Chamberlain “lost or is likely to lose in the future
sales of 11,442 accessory units associated with the
lost GDOs, resulting in additional lost profits of
$134,496 for accessories.” (J. Hansen Decl. ¶ 2, Dkt.
630-1.) So unlike the supplemental damages for lost
profits or royalties associated with GDO sales, these
accessory-sales damages are predicated upon
downstream purchases by consumers. Thus, to the
extent TTI’s buy-back strategy removes infringing
Ryobi GDOs from the market, Chamberlain may not
recover
for
now-prevented,
would-have-been
purchases of accessories. But again, TTI has

94a
announced its intention to re-sell the repurchased
GDOs directly to consumers. If TTI has already
repurchased and resold all of Home Depot’s
remaining stock, this digression is moot and
Chamberlain is entitled to supplemental damages for
accessory lost profits. (See TTI’s Opp. to Enhanced
Damages at 13 n.10, Dkt. 645 (acknowledging TTI’s
intent to sell its remaining inventory of infringing
Ryobi GDOs and predicting selling out all on-hand
stock within six months of October 18, 2017).) But as
discussed above, the Court now grants Chamberlain’s
Motion for a permanent injunction. As such, any
repurchased product on-hand at TTI may not be sold
to future consumers. Thus, it is only that stock—stock
which no consumer will ever use—that may decrease
the supplemental accessory damages TTI must pay.
Given the above, the Court grants Chamberlain’s
Motion for supplemental damages in part and awards
the following:
1. Prejudgment
interest
of
$42,347.00,
calculated by using the 52-week treasury bill rate,
compounded monthly;
2. For the ’275 patent, $900,793.00 in GDO lost
profits; $54,672.00 in royalties; and $134,496.00 in
accessory lost profits, unless TTI has some
repurchased GDO stock still on hand, in which case
TTI may move the Court within fourteen days to
reduce the accessory lost profits damages accordingly;
3. For the ’966 patent, $18,224.00 in royalties.

95a
VI. Chamberlain’s Motion for Attorneys’ Fees
A. Whether to Award Fees
“The court in exceptional cases may award
reasonable attorney fees to the prevailing party.” 35
U.S.C. § 285. In 2014, the Supreme Court clarified the
standard for finding a case “exceptional”: “[A]n
‘exceptional’ case is simply one that stands out from
others with respect to the substantive strength of a
party’s litigating position (considering both the
governing law and the facts of the case) or the
unreasonable manner in which the case was litigated.
District courts may determine whether a case is
‘exceptional’ in the case-by-case exercise of their
discretion, considering the totality of the
circumstances.” Octane Fitness, LLC v. ICON Health
& Fitness, Inc., 134 S. Ct. 1749, 1756 (2014). In
determining whether to award attorneys’ fees, the
trial judge considers “the closeness of the case, the
tactics of counsel, the conduct of the parties, and any
other factors that may contribute to a fair allocation
of the burdens of litigation as between winner and
loser.” S.C. Johnson & Son, Inc. v. Carter-Wallace,
Inc., 781 F.2d 198, 201 (Fed. Cir. 1986). “The
determination whether a case is ‘exceptional’ is
indisputably committed to the discretion of the
district court.” Lumen View Tech. LLC v.
Findthebest.com, Inc., 811 F.3d 479, 482 (Fed. Cir.
2016) (citing Highmark Inc. v. Allcare Health Mgmt.
Sys., Inc., 134 S. Ct. 1744, 1748 (2014)).
Before Octane Fitness, the Federal Circuit
remarked that “[w]hile a finding of willful
infringement does not require a finding that a case is

96a
exceptional, our cases uniformly indicate that the
willfulness of the infringement by the accused
infringer may be a sufficient basis in a particular case
for finding the case exceptional for purposes of
awarding attorney fees to the prevailing patent
owner.” Golight, Inc. v. Wal-Mart Stores, Inc., 355
F.3d 1327, 1340 (Fed. Cir. 2004) (quoting Avia Group
Int’l, Inc. v. L.A. Gear Cal., Inc., 853 F.2d 1557, 1567
(Fed. Cir. 1988)) (citation, alternations, and quotation
marks omitted). The Federal Circuit has had the
opportunity, post-Octane Fitness, to do away with
that formulation and yet has declined to do so. In
Stryker Corp. v. Zimmer, Inc., 837 F.3d 1268, 1279
(Fed. Cir. 2016), the court of appeals noted only that
post-Octane Fitness, a willfulness finding “does not
necessarily” make a case exceptional. That
observation seemingly leaves open the possibility
that, under the Octane totality-of-the-circumstances
test, a willfulness finding alone may suffice for the
“exceptional” designation. See, Stryker Corp. v.
Zimmer, Inc., No. 10 CV 1223, 2017 WL 4286412, at
*2 (W.D. Mich. July 12, 2017) (holding that the jury’s
“subjective willfulness” finding was sufficient for an
“exceptional” case finding under the rigid, pre-Octane
Fitness framework, and is it “certainly sufficient for
such a finding under the more flexible, totality-of-thecircumstances standard enunciated by Octane
Fitness”); see also, Rawcar Grp., LLC v. Grace Med.,
Inc., No. 13 CV 1105, 2014 WL 12577590, at *3 (S.D.
Cal. Dec. 16, 2014) (approvingly reciting, after Octane
Fitness, that a willfulness finding may be a sufficient
basis for finding a case “exceptional”); Comaper Corp.
v. Antec, Inc., No. CV 05¬1103, 2014 WL 12613394, at
*1 (E.D. Pa. June 11, 2014) (same); but cf. Arthrex,

97a
Inc. v. Smith & Nephew, Inc., No. 15 CV 01047, 2017
WL 365239, at *1 (E.D. Tex. Jan. 25, 2017) (“Since
Octane Fitness, the Federal Circuit has acknowledged
that a finding a [sic] willfulness does not necessarily
make a case exceptional.”).
Here, the jury found TTI willfully infringed both
asserted patents. And, though reliance on this finding
alone still appears permissible under controlling
authority, the Court’s finding that this case is
exceptional is bolstered by the conduct of TTI and its
counsel, as described above. (See, supra at Part IV.A.)
Most prominent in the Court’s eyes are TTI’s efforts
to circumvent the preliminary injunction. (See, id.)
Under the totality of the circumstances, the Court
believes an exercise of its discretion is appropriate
here: It finds this case exceptional and accordingly
awards Chamberlain reasonable attorneys’ fees. 35
U.S.C. § 285.
B. What Fees to Award
Chamberlain and TTI tussle over whether TTI’s
objections to the sought-after fees were untimely
under Local Rule 54.3 and thus waived. The shortest
version of the dispute is this: The Court required the
parties to file their Joint Statement by November 21,
2017. Chamberlain produced 562 pages of invoices to
TTI about two months in advance of that deadline,
but did not provide any further breakdown or
summary of those fees until the November 21st due
date. In the Joint Statement, TTI maintains that
because Chamberlain tardily produced this
breakdown, TTI lacked the information necessary to
provide specific objections to Chamberlain’s invoices,

98a
which “contained numerous categories of fees and
costs that [are] not compensable.” (Joint Statement at
10, Dkt. 690.) Still, TTI then waited until January 3,
2018 to articulate its objections in its response to
Chamberlain’s motion for fees. Though both parties
make much of this quarrel, Local Rule 54.3 does not
mandate waiver in such circumstances, and here
TTI’s delayed articulation has not prejudiced the
Court’s ability to settle the fee dispute. The Court will
accordingly consider TTI’s objections as it weighs
which fees to award in this case.
Chamberlain requests $8,033,942.73 in attorneys’
fees (Reply at 13, Dkt. 717 (explaining that since
Chamberlain filed its Motion for fees requesting
$8,286,135.93, Chamberlain received updated
information regarding its legal expenses in this case
and adjusted its request accordingly).) In support of
its request, Chamberlain provides a breakdown of the
billing rates for each attorney who worked on this
matter. (M. Brody Decl. at 5-6, Dkt. 704-2.) The
Seventh Circuit has “defined a reasonable hourly rate
as one that is ‘derived from the market rate for the
services rendered.’ [Further, the court of appeals]
presume[s] that an attorney’s actual billing rate for
similar litigation is appropriate to use as the market
rate.” Pickett v. Sheridan Health Care Ctr., 664 F.3d
632, 640 (7th Cir. 2011) (quoting Denius v. Dunlap,
330 F.3d 919, 930 (7th Cir. 2003)). Here, Chamberlain
provides the affidavit of Michael Brody, the Co-Chair
of Winston & Strawn’s IP Practice. Mr. Brody attests
to extensive litigation and intellectual property
experience and has been a member of this district’s
trial bar since 1985. He regularly handles litigation
budgeting matters at his law firm, and he has applied

99a
that experience to his review of Chamberlain’s billing
invoices in this matter. He also reviewed the
backgrounds of Chamberlain’s attorneys and
ultimately agreed that Chamberlain’s proposed fees
in this case are competitive with those incurred by
other Chicago and nationwide firms handling patent
litigation of similar complexity. (See, Brody Decl.,
Dkt. 704-2.) Further, the Court compared the hourly
rates for Chamberlain’s and TTI’s respective counsel.
(Compare id. (reciting hourly rates for Chamberlain’s
counsel), with Dkt. 711-9 (reciting hourly rates for
TTI’s counsel).) When, as often occurs in Mr. Brody’s
declaration, Chamberlain lists an individual
timekeeper’s rates as a range rather than a single
figure, the Court used the median of the range
presented for the purposes of this comparison. These
are the results: Chamberlain’s attorneys charged an
average of $753.57/hour per partner and
$453.31/hour per associate; TTI’s attorneys charged
an average of $747.35/hour per partner and
$410.80/hour per associate. These rates are not far
apart—TTI’s rates are within 10% of Chamberlain’s—
suggesting that the rates charged by Chamberlain’s
counsel do not much deviate from the market rate for
services rendered. See, Pickett, 664 F.3d at 640.
Because of this and Mr. Brody’s declaration to the
same effect, the Court agrees with Chamberlain that
its counsels’ recited hourly rates are reasonable.
Having determined that the rates are reasonable,
the Court must decide whether it should subtract any
sums
from
Chamberlain’s
requested
total.
Chamberlain provides the following breakdown of its
attorneys’ fees:

100a
Firm

Total Paid Total Paid Total Paid
(-6097
(-6097
(-6097
Related Litigation) Litigation &
IPRs)
Related
IPRs)
Winston & $0
$1,737,490.30 $1,737,490.30
Strawn
Fish &
$870,437.82 $5,426,014.61 $6,296,452.43
Richardson
(Reply, Dkt. 717 at 13.) First, the Court will not award
Chamberlain the $870,437.82 it spent on counsel for
IPR proceedings. Fees related to a separate legal
proceeding cannot be recovered. See, e.g., Hickory
Farms, Inc. v. Snackmasters, Inc., No. 05 C 4541,
2008 WL 4542961, at *6 (N.D. Ill. Apr. 2, 2008).
Chamberlain argues that other courts have permitted
such recovery, see, PPG Indus., Inc. v. Celanese
Polymer Specialties Co., 840 F.2d 1565, 1568 (Fed.
Cir. 1988); Deep Sky Software, Inc. v. Southwest
Airlines Co., No. 10 cv 1234, 2015 WL 10844231, at
*2-3 (S.D. Cal. Aug. 19, 2015), but as TTI points out,
both of the cases Chamberlain cites involved a stay of
litigation pending the Patent Office proceedings.
Thus, in those cases, “[t]he parties and the district
court clearly intended to replace the district court
litigation with the [Patent Office] proceedings.” PPG
Indus., 840 F.2d at 1568; cf. Deep Sky, 2015 WL
10844231, at *1. No such replacement occurred here,
where the Patent Office proceedings ran concurrently
with this litigation.
Nor can Chamberlain recover fees for efforts that
ultimately failed. Prime among these is TTI’s

101a
ultimately victorious appeal to the Federal Circuit
from this Court’s Order instituting the preliminary
injunction. Chamberlain did not win that appeal, and
the Federal Circuit has taken issue with district
courts awarding fees related to court-of-appeals
proceedings. Phonometrics, Inc. v. Choice Hotels Int’l,
Inc., 65 F. App’x 284, 285-86 (Fed. Cir. 2003) (vacating
award of interlocutory-appeal-related attorney fees).
The Court will not award Chamberlain the
$250,289.69 in fees and costs related to that appeal.
True, Chamberlain won fleeting victories on its
motions for a preliminary injunction and for
contempt. But the aforementioned Federal Circuit
decision vacated those victories. The Court will not
award Chamberlain for these unsuccessful motions,
even if this Court at first agreed with Chamberlain’s
arguments. Cf. Eli Lilly & Co. v. Zenith Goldline
Pharm., Inc., 264 F. Supp. 2d 753, 771 (S.D. Ind. 2003)
(denying fees for unsuccessful motions to compel and
for summary judgment). However, calculating how
much Chamberlain spent in fees pursuing these
motions has not been simple. TTI helpfully provided
a breakdown of the 2,289.90 total purported hours
related to these motions and to the Federal Circuit
appeal (see, Ex. E to Response, Dkt. 711-5), but there
are limits to that breakdown’s usefulness: TTI did not
break out which of these 2,000-plus hours relate to the
appeal, as opposed to the motions; though TTI split
up these total hours between individual timekeepers,
TTI did not import the hourly fees for these
timekeepers from the joint status report (Dkt. 690);
and TTI lists one attorney twice, without explanation.
Chamberlain did not provide a breakdown of its own.
To clear this up swiftly and avoid further unnecessary

102a
briefing, the parties shall submit a joint report within
fourteen (14) days providing a billing rate for each
timekeeper appearing in TTI’s list, and the report
shall identify which hours relate to the appeal and
which to the motions. For those timekeepers that Mr.
Brody’s declaration lists not a single hourly rate by a
range, the parties shall use the median of that range.
To the remaining, sought-after attorneys’ fees:
TTI levies two objections the Court finds somewhat
meritorious. In some instances, partners could have
kept fees lower by delegating tasks such as
responding to discovery requests and drafting simple
motions to more junior, and thus less expensive,
attorneys. Prather v. Sun Life & Health Ins. Co., 852
F.3d 697, 699-700 (7th Cir. 2017) (reducing fee award
for hours that could have been delegated to less pricey
counsel). In other instances, Chamberlain’s counsel
undertook clerical tasks for which compensation at
attorney rates is not appropriate. See, Delgado v. Vill.
of Rosemont, No. 03 C 7050, 2006 WL 3147695, at *2
(N.D. Ill. Oct. 31, 2006) (“A court should disallow time
spent on ‘clerical’ or ‘secretarial’ tasks.”). Still, having
reviewed the time records kept by Chamberlain’s
counsel, the Court found such problems in no more
than 5% of the entries. The Court accordingly imposes
a 5% blanket reduction of Chamberlain’s attorneys’
fees. Montanez v. Simon, 755 F.3d 547, 552 (7th Cir.
2014) (observing that district courts have broad
discretion “to adjust bloated bills for attorney’s fees”).
As described above, the final fee award turns
upon a calculation the parties must make concerning
what fees Chamberlain expensed in litigating its
preliminary injunction and contempt motions. Once

103a
the parties submit a joint status report detailing that
sum, Chamberlain’s fee award will be calculated and
ordered as follows: $8,033,942.73 (Chamberlain’s
amended fee request), less $870,437.82 (incurred via
Patent Office proceedings), less $250,289.69 (incurred
via Federal Circuit appeal), less sum-to-bedetermined (incurred via ultimately unsuccessful
motions), less a 5% overall reduction of the resulting
figure.
Finally, Chamberlain seeks $1,221,021.74 in
“non-taxable expenses,” which includes “all costs
claimed on its Bill of Costs.” (Mot. for Attorney’s Fees
at 11-12, Dkt. 704.) The Court addresses these
expenses below and will not award on this motion any
amounts beyond those allowed from the bill of costs.
(See, infra at Part VII.)
VII. Chamberlain’s Bill of Costs
Federal Rule of Civil Procedure 54(d)(1) provides
that a prevailing party may obtain reimbursement for
certain litigation costs at the conclusion of a lawsuit.
The Rule establishes a “presumption that the
prevailing party will recover costs, and the losing
party bears the burden of an affirmative showing that
taxed costs are not appropriate.” Beamon v. Marshall
& Ilsley Trust Co., 411 F.3d 854, 864 (7th Cir. 2005)
(citing M.T. Bonk Co. v. Milton Bradley Co., 945 F.2d
1404, 1409 (7th Cir. 1991)). In evaluating an
application for costs, the Court must first determine
whether the claimed expenses are recoverable and,
second, whether the costs requested are reasonable.
Majeske v. City of Chicago, 218 F.3d 816, 824 (7th Cir.
2000) (citation omitted). The Court has “wide

104a
latitude” in fixing a reasonable award. Deimer v.
Cincinnati Sub-Zero Prods., Inc., 58 F.3d 341, 345
(7th Cir. 1995) (citations omitted).
Here, Chamberlain’s bill of costs and associated
exhibits often fall short of a portrait of clarity. The
Court will make calculations where possible and,
where figures were missing or were not sufficiently
itemized in Chamberlain’s materials, the Court will
rule how the remaining calculations are to be
performed. Chamberlain shall submit a revised bill of
costs within fourteen (14) days including those stillrequired calculations. No further briefing from either
side is necessary.
A. Fees Paid to the Clerk and for Service of
Process
Chamberlain requests $1,463.00 under 28 U.S.C.
§ 1920(1), comprising: $400.00 in fees paid to the clerk
and $1,063.00 in fees for service of process. The latter
includes one hour of service at a $65/hour rate for
each witness served and three witness fee advances
ranging from $64 to $87. All of these costs are
recoverable under § 1920(1) and are reasonable. See
Clarendon Nat. Ins. Co. v. Medina, No. 8 C 4245, 2010
WL 3526515, at *1 (N.D. Ill. Sept. 1, 2010) (reasonable
rates for service of process); Dishman v. Cleary, 279
F.R.D. 460, 466 (N.D. Ill. 2012) (“Where service on a
witness is reasonable at the time, witness fees
advanced will be awarded.”). Further, TTI does not
object to this request. The Court allows the $1,463.00
in costs.

105a
B. Transcript Copies, Expedited Transcripts,
and Realtime Services for Evidentiary
Hearings and Trial
Chamberlain seeks costs for transcript copies, all
ordered on a daily, hourly, or expedited basis, for all
status hearings and motion presentments in the case,
as well as for Realtime services and laptop rentals.
Where the party seeking costs does not provide “any
explanation as to why [it] obtained a copy of a daily
transcript,” it “may only recover costs at the ordinary
transcript rates.” Se-Kure Controls, Inc. v. Vanguard
Prod. Grp., Inc., 873 F. Supp. 2d 939, 945 (N.D. Ill.
2012). Chamberlain provides two justifications for its
constant expediting. First, Chamberlain notes
generally that it and TTI actually put these
transcripts to use throughout litigation. Second,
Chamberlain points out that not only were several
stages of this case particularly fast-moving—e.g., the
preliminary injunction and TTI’s Federal Circuit
petition for a writ of mandamus after this Court’s
denial of TTI’s motion to transfer venue—but also
that hearing transcripts were often cited before the
Court throughout this litigation only days or weeks
after they were ordered. (Chamberlain’s Reply at 6,
Dkt. 683 (citing three examples).) Further, expedited
trial transcripts have been found to be reasonable and
necessary where, as here, “the case involved expert
witnesses
whose
cross-examination
required
knowledge of the exact wording of their previous
testimony or that of any other witnesses.” Hillmann
v. City of Chicago, No. 04 C 6671, 2017 WL 3521098,
at *8 (N.D. Ill. Aug. 16, 2017) (reciting this and four
other factors courts consider when weighing whether
to award daily trial transcripts). The Court agrees

106a
that often, the circumstances in this case reasonably
demanded expedited transcripts. The same is true for
Realtime and the associated laptop rentals, given that
this trial was at times technical and complicated, and
these services were reasonably necessary to ensure
accurate and precise recording of expert testimony.
Cf. Martinez v. City of Chicago, No. 14 CV 369, 2017
WL 1178233, at *23 (N.D. Ill. Mar. 30, 2017) (denying
expedited transcript and Realtime costs where trial
“was not particularly lengthy or complicated, and did
not involve a significant number of witnesses
speaking a language other than English”). However,
these circumstances were not present at every
moment of this litigation, and Chamberlain’s routine
expediting and use of Realtime must have frequently
been an untaxable convenience. Accordingly, the
Court reduces Chamberlain’s costs for expedited
transcripts, Realtime services, and laptop rentals
related to hearings and trial by 15%.
C. Deposition-Related Fees
Chamberlain seeks $9,469.27 for Realtime and
associated computer rentals, as well as $6,798.74 for
rough, condensed, computer-based, and expedited
transcripts, all related to nearly 30 pretrial
depositions. Though TTI correctly points out that both
types of expenses are generally considered to be
obtained for convenience rather than out of necessity,
see, Cascades Computer Innovation, LLC v. Samsung
Elecs. Co., No. 11 C 4574, 2016 WL 612792, at *4
(N.D. Ill. Feb. 16, 2016) (Realtime services); DSM
Desotech Inc., v. 3D Sys. Corp., No. 08 CV 1531, 2013
WL 3168730, at *4 (N.D. Ill. June 20, 2013)
(condensed and electronic transcripts), here

107a
Chamberlain explains that both were reasonably
necessary given tight timelines in this case, namely:
(1) transcripts from July and August 2016 depositions
needed to prepare for a preliminary injunction
hearing set for August 30, 2016; (2) transcripts from
December 2016 and January 2017 depositions needed
to prepare expert reports due on December 14, 2016
and January 23, 2017, respectively, as well as for the
contempt hearing on January 5-6, 2017; (3)
transcripts from July 2017 depositions necessary to
prepare for Daubert motions, due July 21, 2017, and
motions in limine, due July 28, 2017. The Realtime
services and expedited transcripts were thus
reasonably necessary for Chamberlain and its experts
to prepare in advance of Court-scheduled hearings
and deadlines. The Court will allow the $16,268.01 in
costs under this category.
D. Video
Chamberlain seeks costs for video depositions of
all of its own and TTI’s witnesses. But generally,
“[c]ourts in this circuit will not award costs for
videotaping depositions where a transcript was also
purchased.” Martinez v. City of Chicago, No. 14 CV
369, 2017 WL 1178233, at *20 (N.D. Ill. Mar. 30, 2017)
(quotation omitted) (brackets in original). And as
already explained, Chamberlain purchased daily,
hourly, or expedited transcripts for each of these
depositions. Further, Chamberlain’s explanation that
many of these witnesses were outside the Court’s
subpoena power is insufficient to entitle it to these
costs. See, Clearlamp, LLC v. LKQ Corp., No. 12 C
2533, 2016 WL 7013478, at *3 (N.D. Ill. Nov. 30,
2016). The Court declines to award these costs, save

108a
for those costs related to those videotaped depositions
played at trial, namely Carlson, Cameron, Butler, and
Ely. See, LG Elecs. U.S.A., Inc. v. Whirlpool Corp., No.
08 C 0242, 2011 WL 5008425, at *3 (N.D. Ill. Oct. 20,
2011) (awarding costs for video depositions played in
court).
E. Digitization and Synchronization
Chamberlain also seeks costs for the digitation
and synchronization of several video depositions.
These costs will be taxed for those four videotaped
depositions mentioned above that were played at
trial. Id. (synchronization fees may be taxed when
necessarily obtained for use in the case). But as the
other video recordings were not reasonably necessary
for the case, the Court will not award fees for their
digitization and synchronization.
F. Fees for Witnesses
Chamberlain seeks $6,443.13 for attendance fees,
travel costs and lodging for its expert witnesses, of
which TTI objects to $853.30 in first class and
duplicative airfare and to $2,268.00 for unnecessary
lodging charges. 28 U.S.C. § 1920(3) authorizes the
award of costs to reimburse witnesses for their
reasonable travel and lodging expenses, and 28
U.S.C. § 1821 provides for a per diem of $40.00 per
day for attendance at court hearings or deposition.
See, 28 U.S.C. § 1920(3); 28 U.S.C. § 1821(a)-(b);
accord Olivarius v. Tharaldson Prop. Mgmt. Inc., No.
08 C 463, 2012 WL 1117468, at *5 (N.D. Ill. Apr. 3,
2012). Further, a witness’s travel costs are taxable,
but only “at the most economical rate reasonably

109a
available.” 28 U.S.C. § 1821(c)(1). Concerning the
airfare: Chamberlain arranged for two first-class
flights for its expert, Dr. Rhyne, even though the
doctor apparently only took one of these flights—the
other seems to have been booked as an alternative.
The Court declines these costs, which do not represent
travel booked “at the most economical rate reasonably
available.” Id. Chamberlain now concedes that it
cannot recover the costs of lodging for its experts for
those days spent preparing, as opposed to days spent
testifying. DSM Desotech, 2013 WL 3168730, at *1-2.
The balance of Chamberlain’s lodging and attendance
fees, however, is recoverable. See, Olivarius, 2012 WL
1117468, at *5. After subtracting the $853.30 in first
class/duplicative airfare and the $2,268.00 for
unnecessary lodging charges, the Court allows
$3,321.83 in witness costs.
G. Exemplification
Chamberlain seeks $77,394.53 in exemplification
costs, including time billed by Michael Ko, the on-site
technician Chamberlain used at trial, and Joshua
Rider, a Winston & Strawn employee, who created
demonstratives and provided technical support. As an
initial matter, the costs of preparing exhibits may be
recovered, Trading Techs. Int’l, Inc. v. eSpeed, Inc.,
750 F. Supp. 2d 962, 981 (N.D. Ill. 2010) (citing Cefalu
v. Vill. of Elk Grove, 211 F.3d 416, 428-29 (7th Cir.
2000)), but only for exemplification that was
reasonably necessary “to the presentation of one’s
case to the court,” Cefalu, 211 F.3d at 429 (citing 18
U.S.C. § 1920(4)). “When a prevailing party does not
identify the exhibits for which it claims costs, the
court should deny awarding costs for the exhibits

110a
because it is impossible to determine whether the
costs were necessary for use in the case.” Trading
Techs., 750 F. Supp. 2d at 981 (citations and internal
quotations omitted).
Chamberlain submits a summary sheet and three
invoices describing its exemplification expenses. (See,
Dkt. 638-4.) But the entries are generic and provide
the Court no basis to determine whether the laboredover demonstratives were reasonably necessary.
When the invoices actually list a specific-enough item
that might be taxable (e.g., “rhyne slides,” referring to
demonstratives used during the testimony of
Chamberlain’s technical expert, Dr. Rhyne), those
items are lumped together with other either nontaxable or else under-detailed items, thus making it
impossible for the Court to determine appropriate
costs. See, Fox v. Will Cty., No. 04 C 7309, 2009 WL
723385, at *3 (N.D. Ill. Mar. 11, 2009) (refusing costs
where invoice included “items that are clearly not
taxable” as well as “others that might be taxable had
more information been provided”). Chamberlain has
failed to justify its exemplification expenses, so the
Court will not award them. See, id. (finding
unjustified expenses not reasonably necessary).
H. Copying
Copying costs are recoverable but must be
reasonable and “necessarily obtained for use in the
case.” See, 28 U.S.C. § 1920(4). Chamberlain must
“identify the nature of each document copied, the
number of copies of each document prepared, the
copying cost per page, and the total copying cost.”
Druckzentrum Harry Jung GmbH & Co. KG v.

111a
Motorola, Inc., No. 09 CV 7231, 2013 WL 147014, at
*7 (N.D. Ill. Jan. 11, 2013) (citation and internal
quotation marks omitted). Beyond this, however,
Chamberlain need not “submit a bill of costs
containing a description so detailed as to make it
impossible economically to recover photocopying
costs.” Northbrook Excess & Surplus Ins. Co. v.
Procter & Gamble Co., 924 F.2d 633, 643 (7th Cir.
1991). Through an attorney affidavit (Dkt. 636),
Chamberlain represents that the copies reflected in
its summary and invoices (Dkt. 638-5) were used to
support opening and closing statements, as well as in
examination binders for sixteen directs, crosses, and
depositions. Neither Chamberlain’s affidavit nor its
invoices state the number of copies made of each
document, although Chamberlain’s memorandum in
support explains that while the answer is seven of
each, Chamberlain only seeks costs for three copies a
piece given this Court’s recognition that “district
courts have usually limited recovery to three sets of
copies, as a prevailing party may not recover copies
made for its personal use, but may recover for copies
submitted to the court and opposing counsel.”
Menasha Corp. v. News Am. Mktg. Instore, Inc., No.
00 C 1895, 2003 WL 21788989, at *4 (N.D. Ill. July
31, 2003) (citations and internal quotations omitted).
As to the cost per page: Chamberlain explains that
the in-house copying rate at Winston & Strawn is
$0.10/page; this rate appears to be the same for black
and white copies at Ricoh, one of Chamberlain’s
external vendors. (See, Dkt. 638-5 at 5.)
These invoices also include non-recoverable
expenses such as “general pickup and delivery” (Dkt.
638-5 at 6) and “delivery charge” (id. at 9; see, Chi.

112a
Bd. Options Exch., Inc. v. Int’l Sec. Exch., LLC, No. 07
CV 623, 2014 WL 125937, at *3 (N.D. Ill. Jan. 14,
2014) (costs of courier, postage, and delivery charges
are typically considered overhead and not allowable
as costs)), as well as binders and tabs, Berry Plastics
Corp. v. Intertape Polymer Corp., No. 310 CV 00076,
2017 WL 167829, at *8 (S.D. Ind. Jan. 17, 2017)
(“tabs, hole drilling, binders, and document scanning
[…] are not compensable”).
Given the above, the Court awards copying costs
as follows: Chamberlain is entitled to costs for three
copies of each of the deposition and trial documents
described in its exhibits. If the invoices submitted do
not already reflect this reduction—from seven copies
to three—Chamberlain shall make the appropriate
calculation in its revised bill of costs. Costs shall be
calculated on a $0.10/page rate for black and white
copies, and $0.60/page rate for color copies (the latter
apparently the going rate at Ricoh, see, Dkt. 638-5 at
3). Chamberlain shall not be awarded costs for the
remaining, untaxable or otherwise under-explained,
miscellaneous items in these invoices, including
delivery charges, binders, and tabs.
I. E-Discovery Fees
Chamberlain seeks $61,680.65 in costs for optical
character recognition (“OCR”), Bates stamping, and
general document scanning. (See, E-Disc. Expenses
Summary, Dkt. 639-1.) OCR expenses are “typically
not recoverable as prevailing-party costs under 28
U.S.C. § 1920(4), because they are incurred purely to
make a document searchable (as opposed to
readable).” Midwest Fence Corp. v. U.S. Dep’t of

113a
Transportation, No. 10 C 5627, 2018 WL 1535081, at
*3 (N.D. Ill. Mar. 29, 2018) (citations omitted). Costs
for Bates labeling, however, have been found to be
taxable. Id. (citing DSM Desotech, Inc. v. 3D Sys.
Corp., No. 08 CV 1531, 2013 WL 3168730, at *2 (N.D.
Ill. June 20, 2013) (collecting cases)). However,
Chamberlain’s papers lump together costs for OCR,
Bates, and scanning without providing a clear
breakdown. (See, E-Discovery Cost Summary, Dkt.
639-1.) In the absence of a breakdown of these costs,
the Court exercises its discretion to award 25% of the
sought-after e-discovery expenses so that TTI will not
be taxed for costs not recoverable under Section
1920(4). See, e.g., Allen v. City of Chicago, No. 10 C
3183, 2016 WL 1070828, at *9 (N.D. Ill. Mar. 16, 2016)
(noting that where “the prevailing party has not met
its burden of showing that the requested costs were
necessarily incurred and reasonable … courts in this
district have either reduced copying costs by a
substantial percentage or denied copying costs
entirely” and awarding 25% of the requested ediscovery costs given the absence of a breakdown of
the fees charged); Intercontinental Great Brands LLC
v. Kellogg N. Am. Co., No. 13 C 321, 2016 WL 316865,
at *2 (N.D. Ill. Jan. 26, 2016) (awarding 25% of
requested processing fees in absence of a breakdown).
The Court thus awards $15,420.16 in e-discovery
costs to Chamberlain.
VIII. CONCLUSION
For the reasons stated herein, the Court orders
the following:

114a
1. TTI’s Motion for Judgment as a Matter of Law
is denied (Dkt. 573);
2. TTI’s Motion for a New Trial is denied (Dkt.
619);
3. Chamberlain’s Motion for a
Injunction is granted (Dkt. 622);

Permanent

4. Chamberlain’s
Motion
for
Enhanced
Damages is granted (Dkt. 624, 625), and the Court
accordingly awards Chamberlain $11.4 million in
treble damages;
5. Chamberlain’s Motion for Prejudgment
Interest and Supplemental Damages is granted in
part (Dkt. 630), and the Court awards the following:
a. Prejudgment interest of $42,347,
calculated by using the 52-week treasury bill
rate, compounded monthly;
b. For the ’275 patent, $900,793 in GDO
lost profits; $54,672 in royalties; and $134,496
in accessory lost profits, unless TTI has some
repurchased GDO stock still on hand, in
which case TTI may move the Court within
fourteen (14) days to reduce the accessory lost
profits damages accordingly;
c. For the ’966 patent, $18,224 in
royalties.
6. Chamberlain’s Motion for Attorneys’ Fees is
granted in part (Dkt. 703, 704), though the Court will
not order any fees until the parties submit, within

115a
fourteen (14) days, a joint report as described in this
ruling;
7. Chamberlain’s Bill of Costs is granted in part
(Dkt. 634), though the Court will not order any costs
until Chamberlain submits, within fourteen (14)
days, a revised bill of costs in accordance with this
ruling.
IT IS SO ORDERED.
/s/ Harry D. Leinenweber
Harry D. Leinenweber, Judge
United States District Court
Dated: 5/23/2018

116a
APPENDIX C
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
__________________________
CHAMBERLAIN GROUP, INC.,
Plaintiff-Appellee
v.
TECHTRONIC INDUSTRIES CO. LTD.,
TECHTRONIC INDUSTRIES NORTH
AMERICA, INC., ONE WORLD
TECHNOLOGIES, INC., OWT INDUSTRIES,
INC., RYOBI TECHNOLOGIES, INC.,
Defendants-Appellants
ET TECHNOLOGY (WUXI) CO. LTD.,
Defendant
__________________________
2018-2103, 2018-2228
__________________________
Appeals from the United States District Court for
the Northern District of Illinois in No. 1:16-cv-06097,
Senior Judge Harry D. Leinenweber.
__________________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
__________________________

117a
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellee The Chamberlain Group, Inc. filed a
combined petition for panel rehearing and rehearing
en banc. A response to the petition was invited by the
court and filed by Appellants Techtronic Industries
Co., Ltd., Techtronic Industries North America, Inc.,
One World Technologies Inc., OWT Industries, Inc.,
and Ryobi Technologies, Inc. The petition was
referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on
December 26, 2019.
FOR THE COURT
December 17, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

